U.S. DEPARTMENT OF COMMERCE
         Office of Inspector General



              PUBLIC
             RELEASE



           INTERNATIONAL TRADE
                ADMINISTRATION

         Management Improvements Needed to
       Better Prepare for the Export Challenges
                             of the 21st Century


           Inspection Report No. IPE-9904 / March 1999




           Office of Inspections and Program Evaluations
March 19, 1999

MEMORANDUM FOR:               David L. Aaron
                              Under Secretary for International Trade


FROM:                         Johnnie Frazier
                              Acting Inspector General

SUBJECT:                      Final Report: International Trade Administration
                              Management Improvements Needed to Better Prepare for the
                              Export Challenges of the 21st Century (IPE - 9904)

As a follow-up to our August 31, 1998, draft report, this is our final report on our program
evaluation of Commerce’s export promotion efforts. The report includes comments from your
December 1, 1998, written response. Copies of your response, and those of the other Commerce
agencies involved in international trade, are included in their entirety as an attachment to the
report.

We primarily examined two elements of the Department’s export promotion efforts: (1) how
effectively the International Trade Administration manages its programs and operations, and
(2) how well ITA and other units within the Department work together to expand business
opportunities for U.S. companies through international exports.

Our report highlights some of the things that are working very well in ITA—including some
related to (1) ITA’s services and broad support for U.S. exporters and (2) the Department’s
collective efforts–both direct and indirect–at promoting U.S. exports. However, the report also
highlights problems that hamper ITA's efforts to more effectively and efficiently carry out its
export promotion responsibilities. Here we identify the need for ITA to better define, coordinate,
and organize its varied roles and responsibilities. We also discuss the need to more clearly
delineate responsibilities for international telecommunications trade policy and promotion
between ITA and the National Telecommunications and Information Administration.

Finally, the report offers a number of other specific recommendations that we believe, if
implemented, will better prepare ITA and the Department for the export promotion challenges of
the 21st century.

Please provide your action plan addressing the recommendations in our report within 60 calendar
days.

We thank you and the staff of ITA for the assistance and courtesies extended to us during our
assessment. If you have any questions or comments about our report or the requested action
plan, please contact me on (202) 482-4661.

Attachment
U.S. Department of Commerce                                                                                        Final Report IPE-9904
Office of Inspector General                                                                                                  March 1999


                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

I.        ITA Senior Officials Need to Better Define the Missions and Responsibilities of
          Its Units and Encourage Greater Cooperation and Coordination . . . . . . . . . . . . . . . . . . . . 6

II.       US&FCS Is Pursuing Several Key Initiatives to Help Achieve Its
          Congressional Mandate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          A.         US&FCS is working to comply with requirements of the Omnibus Trade
                     and Competitiveness Act of 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          B.         US&FCS’s implementation of integration has had mixed results . . . . . . . . . . . . 15

          C.         The “Teams Initiative” could be a major tool in improving the effectiveness
                     of ITA’s trade promotion efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

III.      ITA Needs to Improve Its Planning and Oversight of the Agency’s Information
          Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

IV.       Although TPCC Has Had Some Noteworthy Accomplishments, Some
          Improvements Are Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

          A.         TPCC has made some progress toward establishing a government-wide
                     strategy for export promotion activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

          B.         TPCC should encourage greater interagency coordination overseas . . . . . . . . . . 32

V.        Better Coordination Is Needed Between the Commerce Agencies Involved in Export
          Promotion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

          A.         EDA export promotion grants should be better coordinated with ITA . . . . . . . . 35
U.S. Department of Commerce                                                                                          Final Report IPE-9904
Office of Inspector General                                                                                                    March 1999




          B.         BXA and ITA appear to be working well together on defense trade advocacy . . 39

          C.         MBDA export promotion efforts are not always in concert with ITA . . . . . . . . . 42

          D.         NIST is contributing to U.S. export efforts by addressing international
                     standards issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

          E.         NMFS and ITA are coordinating on fisheries related trade issues . . . . . . . . . . . 46

          F.         NTIA and ITA promote trade opportunities for the U.S. telecommunications
                     industry, but neither is coordinating its activities very well with the other . . . . . 47

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

APPENDIXES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

          ITA Organizational Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
          Glossary of Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
          Trade Promotion Coordinating Committee Member Agencies . . . . . . . . . . . . . . . . . . . . 58
          Partial Bibliography . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
          Agencies’ Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

                     ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60
                     NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
                     MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
                     EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


                                   EXECUTIVE SUMMARY


International trade is a vital element in the health of our nation’s economy. It was reported in the
Trade Promotion Coordinating Committee’s (TPCC) 1997 National Export Strategy that
“exports support over 11 million U.S. jobs–including one in five manufacturing jobs–and have
been responsible for nearly 2 million new jobs in the past four years alone.” In 1997, the U.S.
exported $933 billion in goods and services. However, the United States’ 1997 trade deficit, as
reported by the Census Bureau, was $114 billion, which included a $199 billion deficit in goods
and a $85 billion surplus in services. Thus, it is clear that much more needs to be done to reduce
that deficit and further expand U.S. trade opportunities.

The Commerce Department’s International Trade Administration leads the federal government’s
efforts to promote and increase U.S. exports. ITA has three units to principally spearhead its
trade promotion efforts: Market Access and Compliance, U.S. and Foreign Commercial Service
(US&FCS), and Trade Development. Import Administration, ITA’s fourth unit, primarily
enforces laws and agreements to prevent unfairly traded imports into the United States.

Although ITA is clearly the lead departmental agency in the area of trade promotion, it is not the
only Commerce agency that plays a vital role in the advancement of U.S. exports. Several other
agencies within the Department participate in export promotion activities and related trade policy
discussions and negotiations.

We attempted to answer two basic questions during our review of the Department’s export
promotion efforts:

1.     How effectively has ITA managed its trade promotion programs and operations?
2.     How well has ITA worked with other federal agencies and other units within the
       Department to expand trade opportunities for U.S. businesses?

We observed that ITA has accomplished much in the area of trade promotion. We found that
U.S. firms and potential exporters, as well as ITA’s partners, are increasingly acknowledging
ITA’s efforts to help them increase exports and better compete in the global economy. ITA is
doing this by (1) making progress towards establishing a government-wide strategy for export
promotion activities, (2) providing U.S. firms with a greater awareness of export opportunities,
and (3) offering improved services and support at its domestic and overseas offices. We found,
for example, during our recent and frequent visits to overseas and domestic offices, that most
people we interviewed spoke highly of ITA products, services, and support.




                                                 -i-
U.S. Department of Commerce                                                  Final Report IPE-9904
Office of Inspector General                                                            March 1999


However, we also found problems and concerns in varying degrees in the internal structure of
ITA and the guidance and direction provided by ITA senior managers. Fortunately, many of the
internal organization and management problems facing ITA are not readily apparent to its clients
and partners in the field. Nonetheless, these problems–many of them longstanding–warrant
management’s attention if ITA is to more effectively help U.S. exporters.

l      Many of the problems in ITA’s management of its programs and operations point to
       periodic voids in leadership and general direction of the individual units.
       Overwhelmingly, the ITA officials, managers, and employees that we interviewed spoke
       of these voids. We also noted that too often in the past, the Under Secretary position has
       been vacant and the Deputy Under Secretary has had to act as Under Secretary, while
       attempting to concurrently perform his job. In addition, because incoming under
       secretaries usually devote most of their time and effort to the Administration’s many
       important program initiatives, ITA has often lacked the leadership and direction to
       effectively provide MAC, TD, and US&FCS with broad objectives, while at the same
       time providing organizational boundaries to help avoid overlap, duplication, and
       confusion. Senior ITA officials need to recognize the importance of effectively managing
       the agency and assume that responsibility. Foremost, this should include providing clear
       guidance and direction to each unit, holding each assistant secretary accountable for
       achieving their broad objectives, and ensuring that adequate cooperation and coordination
       exist between ITA units (see page 6).

l      ITA’s current organizational structure, as it has been managed, has encouraged a
       fragmented and often duplicative approach to providing trade promotion services and
       support to U.S. firms. Realizing the agency’s organizational problems, both the former
       Under Secretary and the current Under Secretary have prepared reorganization proposals
       to address these problems and, in the process, many of the concerns noted in this report.
       We note that any reorganization of ITA should, at a minimum, aim to (1) reduce
       overlapping administrative and programmatic functions, and (2) remove organizational
       barriers that inhibit internal coordination and cooperation. We caution, however, that
       although consolidating many administrative functions within the ITA’s Office of
       Administration is conceptually sound, the Under Secretary must ensure that the office has
       the capabilities and commitments to handle its added responsibilities (see page 6).

l      The Omnibus Trade and Competitiveness Act of 1988 recognizes the importance of ITA
       in providing products and services to U.S. exporters. This is particularly true for the
       US&FCS since the Act specifically requires that the OIG periodically review US&FCS’s
       efforts in this regard. We found that the US&FCS continues to undertake a variety of
       efforts to comply with specific requirements of the Act. US&FCS offers a number of
       export promotion products and services, most of which are designed specifically for
       small- and medium-sized companies. For example, in its Gold Key Service, one of the


                                              -ii-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


       more popular services offered, trade specialists in a target country will arrange
       appointments for a U.S. exporter with prescreened contacts whose interests and
       objectives match those of the client (see page 12).

l      The Act also details specific reporting requirements for assessing the effective efficient
       management of the US&FCS foreign personnel system. This is the subject of a separate
       audit to be issued soon. We did, however, look at one key personnel management
       issue–commonly referred to as “integration.” Although US&FCS’s policy of better
       integrating its domestic and overseas personnel is sound, we and many US&FCS staff
       were disappointed with how the initiative was originally developed and implemented.
       The initiative was not well planned and did not adequately consider employees’ concerns.
       To address these and other concerns, US&FCS recently conducted a study of its
       integration efforts and revised the integration initiative based on the results. This revised
       approach to integration appears to effectively address a number of employee concerns
       expressed to us during our review, though it does not go as far as some believe is
       necessary to encourage integration of other parts of ITA headquarters units with the field
       structure (see page 15).

l      US&FCS’s “Teams Initiative” could be a major tool in improving the effectiveness and
       coordination of ITA operations worldwide. This initiative has given its domestic staff a
       vehicle to help carry out trade promotion activities in a cooperative manner. Teams could
       be even more effective by routinely leveraging staff resources from other ITA units to
       address a specific trade-related issue. In order to achieve the highest degree of success,
       teams should not only coordinate their activities within US&FCS, but also work more
       effectively with ITA’s offices of Trade Development and Market Access and
       Compliance, where appropriate. Additionally, we believe that the position of Teams
       Initiative manager should be moved from the field back to headquarters to increase the
       initiative’s visibility and effectiveness (see page 19).

l      ITA should make greater use of advances in information technology to improve both its
       in-house operations and programs, and the delivery of its products and services to U.S.
       firms. Some efforts currently underway in US&FCS appear to be headed in that
       direction, but more is needed (see page 23).

With regard to ITA’s interaction with other federal agencies and other units within the
Department, we found that:

l      The TPCC has made some progress toward establishing a government-wide strategy for
       export promotion activities. In our 1993 report, “Assessment of Commerce’s Efforts in




                                               -iii-
U.S. Department of Commerce                                                  Final Report IPE-9904
Office of Inspector General                                                            March 1999


       Helping U.S. Firms Meet the Export Challenges of the 1990s,” we reported concerns
       about the lack of adequate interagency coordination. Since that review, ITA has
       established a TPCC Secretariat to improve the coordination between U.S. government
       agencies on federal trade promotion efforts and to also provide a permanent point of
       contact for federal or private sector representatives seeking information on TPCC
       activities. The TPCC still does not have the authority or clout to direct coordination or
       eliminate duplicative trade promotion efforts among the TPCC agencies. However, in
       fiscal year 1998, the TPCC Secretariat was tasked with reviewing the strategic plans of
       each TPCC agency and reporting to the Office of Management and Budget (OMB) on
       which agency programs are most effective and consistent with the policy goals articulated
       in the National Export Strategy. The TPCC Secretariat will now also report where there
       is duplication between agencies for OMB’s consideration in developing the President’s
       budget (see page 30).

l      Too often, there is inadequate cooperation and coordination between the various U.S.
       agencies operating there to promote U.S. exports. For example, during several reviews of
       overseas posts, we found instances where the U.S. Agency for International Development
       and US&FCS staff did not effectively communicate on major USAID projects. A lack of
       coordination among TPCC agencies at posts can result in missed trade opportunities,
       inefficient operations, and embarrassing overlap and duplication. The TPCC, as well as
       ITA, should encourage greater interagency coordination overseas because it can be a
       valued asset to U.S. exporters (see page 32).

l      Commerce’s Economic Development Administration often provides grants to state and
       local governments and non-profit organizations to help them diversify the economies of,
       and create quality jobs in, communities impacted by various economic conditions.
       During this review, we examined several of these grants that were directly related to
       international trade and, more specifically, export promotion. Unfortunately, we found
       that EDA and ITA had not coordinated well on several EDA grants to fund local world
       trade centers. This situation creates confusion for ITA’s partners and could potentially
       embarrass the Department. EDA and ITA should improve their coordination to prioritize
       and maximize the use of EDA funds for trade promotion efforts (see page 35).

l      Through our discussions with officials at the Bureau of Export Administration and ITA, it
       appears that both agencies are working well together to assist U.S. firms in defense-
       related industries to develop new business opportunities in growing international markets.
       BXA officials stated they found both ITA’s Advocacy Center and US&FCS to be very
       helpful and cooperative. In addition, BXA representatives attend US&FCS’s annual
       senior commercial officer conferences in an effort to keep the officers informed about




                                              -iv-
U.S. Department of Commerce                                                  Final Report IPE-9904
Office of Inspector General                                                            March 1999


       BXA’s activities to promote American defense company sales overseas and ways that
       US&FCS can be of assistance to the U.S. defense industry (see page 39).

l      The Minority Business Development Agency and ITA should better coordinate their
       export promotion activities throughout the nation to provide more effective service to
       their clients. MBDA should work with and use US&FCS and other components of ITA
       as a primary source of trade assistance for MBDA’s clients. Together with US&FCS’s
       U.S. Export Assistance Centers, we believe that MBDA-funded minority business
       development centers and other funded organizations could help minority-owned
       businesses become an integral part of the U.S. exporting effort (see page 42).

l      During our reviews of several overseas US&FCS posts, we noted the value, or potential
       value, that representatives from the National Institute of Standards and Technology
       (NIST) add to increasing the competitive position of U.S. exporters. NIST officials want
       to place additional standards representatives in other countries, such as developing
       nations needing guidance and assistance in their industry standards development. While
       we did not assess the need for such permanent versus temporary duty overseas
       assignments, we do encourage NIST to work closely with ITA and continue Commerce’s
       efforts to provide assistance to developing nations, where NIST’s advice and direction
       can help shape those nations’ industry standards (see page 45).

l      The National Marine Fisheries Service (NMFS), a major component of the National
       Oceanic and Atmospheric Administration, and ITA appear to be working well together on
       fisheries-related trade issues. To ensure that the two agencies maintain their positive
       working relationship, ITA and NMFS officials are moving to update their memorandum
       of understanding on the fisheries trade program (see page 46).

l      Both the National Telecommunications and Information Administration and ITA are
       involved in promoting international market access and trade opportunities for U.S.
       telecommunications companies. Unfortunately, neither agency is coordinating its
       activities very well with the other (see page 47).

On page 52, we offer a number of recommendations to the Under Secretary for International
Trade, the assistant secretaries for EDA and NTIA, and the Director of MBDA. Our
recommendations are aimed at improving ITA, departmental, and federal export promotion
efforts to assist U.S. companies meet the export promotion opportunities and challenges of the
21st century.




                                               -v-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999




In ITA’s December 1, 1998, written response to our draft report, the Under Secretary for
International Trade generally agreed with all but one of our recommendations. The Under
Secretary disagreed that improved coordination is needed between ITA and EDA. We found, as
cited in the report, several instances of poor or misdirected communications between ITA and
EDA that caused or had the potential to cause problems between US&FCS domestic offices and
their partners. The Assistant Secretary for Economic Development, in his response, indicated his
willingness to improve coordination with ITA on international trade related projects.

The Under Secretary also stated that “the report fails to recognize recent improvements” in ITA
coordination since the prior 1992 report on the Department’s export promotion efforts. Although
we do, indeed, cite several examples in the report of improvements in internal ITA coordination,
we have made some appropriate modifications to the final report in response to the Under
Secretary’s comments.

In addition, both the Assistant Secretary for Communications and Information, and the Under
Secretary for International Trade both agreed with our observation that the two agencies do not
effectively cooperate, at least at a headquarters level. Neither response, however, indicated that
the two agencies would, as we recommended, (1) come to an agreement as to the respective roles
and responsibilities of their agencies, (2) institutionalize their respective roles and
responsibilities by revising the relevant DOOs, and (3) formalize their operating relationship in
an interagency agreement. We reiterate our strong belief that the overlap and duplication,
coupled with poor coordination at the headquarters level, are not the most efficient and effective
ways to promote U.S. exports in the telecommunications industry.

Responses from the Director of the Minority Business Development Agency and Assistant
Secretary for Economic Development each generally agreed with the observations and
recommendations contained in our draft report. Each agency’s response has been included as an
appendix to this report.




                                               -vi-
U.S. Department of Commerce                                                                  Final Report IPE-9904
Office of Inspector General                                                                            March 1999


                                              INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978 and the requirements of the
Omnibus Trade and Competitiveness Act of 1988, the Office of Inspector General conducted a
program evaluation of the export promotion efforts of the U.S. Department of Commerce. The
Omnibus Trade and Competitiveness Act of 1988 mandates that the Office of Inspector General
conduct periodic reviews of the activities and effectiveness of U.S. and Foreign Commercial
Service (US&FCS) operations.

Program evaluations are special reviews that the OIG undertakes to provide agency managers
with information about operational issues. One of the main goals of a program evaluation is to
eliminate waste in federal government programs by encouraging effective and efficient
operations. By asking questions, identifying problems, and suggesting solutions, the OIG hopes
to help managers move quickly to address problems identified during the program evaluation.
Program evaluations may also highlight effective programs or operations, particularly if they
made be useful or adaptable for agency managers or program operations elsewhere. This
program evaluation was conducted in accordance with the Quality Standards for Inspections
issued by the President's Council on Integrity and Efficiency.

During the review and at its conclusion, we discussed our findings with the Deputy Under
Secretary for International Trade; the Acting Director of the Minority Business Development
Agency; the Under Secretary for Export Administration; the Assistant Secretaries for Economic
Development, and Communications and Information; and the Director of the National Institute of
Standards and Technology (NIST).


                                          PURPOSE AND SCOPE

To assess the Department's export promotion efforts, we drew upon (1) our relatively recent
inspection and audit work, including OIG reviews at 14 US&FCS offices worldwide1, (2)
selected General Accounting Office (GAO) reports, and (3) other relevant materials. We visited
US&FCS domestic field operations in Baltimore, Chicago, San Francisco, Atlanta, and Miami.
We interviewed many ITA officials, managers, and staff, as well as representatives from the
Department and other government agencies, at the federal, state, and local levels. We also
interviewed many individuals from the private sector, both actual and potential exporters, to see
what they believe the Department can and should do to help them export, as well as to obtain
their impressions of the actual services provided by the International Trade Administration.



        1
           Five of these reviews are reports that have been issued in final (see Appendix D). The remaining nine are
either in draft or are currently being drafted.

                                                        -1-
U.S. Department of Commerce                                                 Final Report IPE-9904
Office of Inspector General                                                           March 1999


We focused on two key questions about the Department’s export promotion efforts: (1) how
effectively ITA manages its programs and operations, and (2) how well ITA and other units
within the Department work together to expand international business opportunities for U.S.
companies. As such, we did not review in detail the operations of the Import Administration.
Our resulting observations, conclusions, and recommendations are contained in this report.




                                              -2-
U.S. Department of Commerce                                                                 Final Report IPE-9904
Office of Inspector General                                                                           March 1999


                                              BACKGROUND

International trade is a vital element in the health of our nation’s economy. It was reported in the
Trade Promotion Coordinating Committee’s 1997 National Export Strategy that “exports support
over 11 million U.S. jobs—including one in five manufacturing jobs—and have been responsible
for nearly two million new jobs in the past four years alone,” paying on average 15 percent more
than jobs not related to exports. In 1997, the U.S. exported $933 billion in goods and services.
There is, however, much work left to be done. The United States’ 1997 trade deficit, as reported
by the Census Bureau, was $114 billion, including a $199 billion deficit in goods and a $85
billion surplus in services. The importance of exports to the economy of the United States is
clearly stated by the President in the 1997 National Export Strategy:

            “To continue to grow and prosper, we must look increasingly to business
            opportunities beyond our borders. To maintain our standard of living, we must
            continue to work for greater access to foreign markets–not retreat to the
            sidelines and leave the playing field to others. America’s future economic
            prosperity and security demand nothing less. . . . Good jobs, sustained
            economic growth, and stronger communities all depend on our ability to
            compete successfully in the global marketplace.”



The Department’s International Trade Administration leads the nation’s efforts to (1) encourage,
assist, and advocate U.S. exports; (2) ensure U.S. companies have equal access to foreign
markets; and (3) enable U.S. businesses to compete against unfairly traded imports and to
safeguard jobs and the competitive strength of American industry. ITA accomplishes its mission
by (1) supporting and providing services to new-to-export and new-to-market businesses through
domestically located U.S. Export Assistance Centers2 and overseas offices and commercial
centers; (2) advocating on behalf of U.S. exporters who are competing for major overseas
contracts and by implementing major trade agreements, such as the General Agreements on
Tariffs and Trade and the North American Free Trade Agreement; and (3) enforcing antidumping
and countervailing duty laws and agreements that provide remedies for unfair trade practices.

ITA is comprised of four units. Market Access and Compliance (MAC)3 staff help U.S.
businesses to overcome barriers to trade and investment. With country specialists on nearly 200



        2
         U.S. Export Assistance Centers (hubs) are usually located in major exporting cities and have smaller
Export Assistance Centers (spokes) reporting to them.
        3
         Formerly known as “International Economic Policy.”

                                                       -3-
U.S. Department of Commerce                                                           Final Report IPE-9904
Office of Inspector General                                                                     March 1999


countries, they develop current and long-term market access strategies and provide information
that enables U.S. firms to benefit from market access openings from the over 200 trade
agreements that the United States has concluded over the past five years. US&FCS is a global
network of business specialists assisting U.S. exporters in more than 220 cities located
worldwide in the United States and in 78 foreign countries. Markets in the countries where
US&FCS staff are posted reportedly represent more than 95 percent of the world market for U.S.
exports. In the United States, US&FCS operates a “hub-and-spoke” network of 100 Export
Assistance Centers, which offer companies a range of export facilitation services in one location.
Trade Development (TD) industry specialists work with manufacturing and service industry
associations and firms to identify trade opportunities and obstacles by product or service,
industry sector, and market. To assist U.S. businesses in their export efforts, TD supports trade
missions, trade fairs, and marketing seminars. Industry specialists are organized into six major
sectors: Technology and Aerospace Industries; Basic Industries; Textiles, Apparel, and
Consumer Goods Industries; Tourism Industries; Service Industries; and Environmental
Technologies Exports. Import Administration (IA) enforces laws and agreements to prevent
unfairly traded imports and to safeguard jobs and the competitive strength of American industry.
Unfair foreign pricing and government subsidies distort the free flow of goods and adversely
affect American business in the global marketplace. The antidumping and countervailing duty
laws, administered by IA, provide remedies for these unfair trade practices.

ITA had $287.866 million in fiscal year 1998 funding, including $4.8 million in carryover funds,
to accomplish its mission. This was a 4.98 percent increase over the prior year’s appropriation.
Congress directed that these funds be allocated to the line organizations and functions as outlined
below in Table 1.

Table 1: ITA Appropriations and Carryover, Fiscal Years 1993 - 98 (dollars in 000s)

                        1993       1994          1995           1996          1997           1998
US&FCS                $113,396    $136,598      $158,298       $162,800      $168,200       $171,070
IEP/MAC                 17,325      19,748        27,808         18,400        17,100         17,340
TD                      54,707      59,903        67,574         56,485        59,400         58,986
IA                      28,423      32,341        30,368         29,200        29,500         28,770
Administration                                                                                11,700
Carryover                                          (17,955)       (2,000)         (4,200)     (4,800)
Total              $213,851 $248,590             $266,093      $264,885         $270,000    $283,066
*Note: Congress added the line item “Executive Direction and Administration” in
        fiscal year 1998.




                                                    -4-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


Although ITA is clearly the lead departmental agency in the area of trade promotion, it is not the
only Commerce agency that plays a vital role in the advancement of U.S. exports. Several other
agencies within the Department participate in export promotion activities and related trade policy
discussions and negotiations. NIST assists U.S. firms to become more competitive in the global
marketplace through its work on foreign and domestic measurement and standards issues.
MBDA seeks to involve a greater number of minority-owned businesses in the international
arena, in part, through its network of business development centers across the country. EDA
provides funding to U.S. communities to enhance their international trade activities and further
their economic development. Other Commerce agencies, such as the Bureau of Export
Administration, National Telecommunications and Information Administration, Patent and
Trademark Office, Census Bureau, Office of General Counsel, and the National Oceanic and
Atmospheric Administration, also provide varying degrees of support and assistance in the area
of international trade policy and promotion.




                                               -5-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


                              OBSERVATIONS AND CONCLUSIONS


I.     ITA Senior Officials Need to Better Define the Missions and Responsibilities
       of Its Units and Encourage Greater Cooperation and Coordination

Management deficiencies have historically hindered the effectiveness and efficiency of the
Department’s export promotion efforts. Many of the problems—previously identified by this
office, GAO, and various consulting firms hired by ITA—continue to hamper ITA’s efficient
promotion of U.S. exports. In a time where diminished federal resources require a more
strategically focused effort, (1) voids in ITA leadership and direction have led to ineffective
coordination and cooperation among MAC, TD, and US&FCS, and (2) ITA’s current
organizational structure—as it has been managed—encourages a fragmented and often
duplicative approach to providing trade promotion services and support to U.S. exporters.

Voids in leadership

Many of the problems we identified during this review point directly to a lack of general
direction from ITA senior managers. It has been argued to us by many ITA officials, both
political and career, that because of frequent vacancies in the Under Secretary position, ITA often
lacked effective leadership and direction to provide MAC, TD, and US&FCS with broad
objectives and organizational boundaries to help avoid overlap, duplication, and confusion.
Theoretically, the Deputy Under Secretary (DUS), a career position, should take the lead in that
area. Too often, however, the DUS has had to act as Under Secretary in the absence of an
appointed one. As a result, with programmatic initiatives as the greater priority, the agency has
not consistently devoted sufficient time and attention to ITA management and organizational
issues. Table 2 highlights the number of times when the under secretary position was vacant and
an acting under secretary was in charge.




                                                -6-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


Table 2: Under Secretaries for International Trade: Acting Versus Appointed

    Under Secretary                Status                     Dates                   Months
 David Aaron                     Appointed            11/14/97 - Present                 15
 Timothy Hauser (DUS)              Acting             06/06/97 - 11/13/97                5
 Stuart Eizenstat                Appointed            04/05/96 - 06/05/97                9
 Timothy Hauser (DUS)              Acting             01/96 - 04/04/96                   3
 David Rothkopf (DUS)              Acting             10/14/95 - 01/96                   2
 Jeffrey Garten                  Appointed            11/09/93 - 10/13/95                23
 Timothy Hauser (DUS)              Acting             05/30/92 - 11/08/93                17

As shown above, the agency has had the benefit of an officially appointed under secretary for
only 47 of the last 74 months—or 63 percent of the time. In ITA where political positions have
traditionally been so pervasive—from the assistant secretaries down, in some instances, to office
directors—it is inherently difficult for a career acting under secretary to maintain management
control over such subordinates.

Unfortunately, it has been our observation over the years, as well as the consensus of many of the
ITA staff that we interviewed, that under secretaries usually spend the bulk of their time and
effort developing and implementing major initiatives–too often at the expense of providing the
leadership and direction necessary to guide and manage ITA and its often autonomous units. We
spoke with more than 50 senior officials within the various units of ITA, including the Under
Secretary’s office. Many of them acknowledged that each unit essentially determined its own
mission and direction without great regard for guidance from ITA–the parent organization–or for
what the other units were already doing.

We also found that although problems with territorial battles between export promotion and
export development units within ITA have improved somewhat over the last five years, some
longstanding conflicts persist. In part because of the programmatic priorities and lapses in
leadership, ITA senior management has not effectively (1) implemented an organizational
structure that best supports the agency’s roles and responsibilities; (2) ensured that coordination
between operating units is effective and duplication is minimized; or (3) ensured that each unit is
working on the specific areas it was assigned.




                                                -7-
U.S. Department of Commerce                                                            Final Report IPE-9904
Office of Inspector General                                                                      March 1999


It is imperative that senior ITA officials take on the responsibility of effectively managing the
agency, to include providing clear guidance and direction to each unit, holding each assistant
secretary accountable for achieving the tasks so assigned, and ensuring that adequate cooperation
and coordination exist between the units within ITA.

ITA reorganization efforts

As noted in our 1993 report on the Department’s export promotion efforts4, the current
organizational structure “is not conducive to successful coordination and is, itself, a major
impediment to ITA’s ability to carry out export promotion programs efficiently and effectively.”
We recommended that ITA “concentrate the principal export promotion activities—including
counseling, trade event recruitment, and trade information centers under the direction and
leadership of the US&FCS.” We also recommended that ITA “specify as primary roles for TD
and [MAC], the analysis, formulation, and implementation of trade policies affecting the global
competitiveness of U.S. industry.” Unfortunately, the functional and organizational structure of
ITA has not changed dramatically since we made that observation in 1993. Hence, although
there have been some improvements in the level of cooperation, our findings and
recommendations remain basically the same. ITA must reorganize, at least functionally, to
enable it to more effectively focus its services to U.S. exporters, hold individual units
accountable for the tasks assigned to them, and encourage greater cooperation and coordination
between ITA units.

After meeting with nearly all of the deputy assistant secretaries, assistant secretaries, and other
key officials within the agency and the Department, we developed criteria to help the agency as it
designs an organizational structure to best accomplish ITA’s mission. It is important to
emphasize that the most critical aspect of any reorganization of ITA is having a strong
management team that will define the agency’s priorities and associated tasks, communicate
them to employees, and hold the various units accountable for accomplishing their assigned
tasks. In addition, it is crucial that management direct its employees to work in concert with each
other in order to achieve ITA’s overall goals.

Realizing the agency’s organizational problems, both the former Under Secretary and the current
Under Secretary have prepared reorganization proposals to address these problems and many of
the concerns noted in this report, as well as concerns noted and recommendations made in our
1993 report. The Under Secretary’s stated key objectives of this proposed reorganization plan
are to (1) clearly assign functions to the ITA units, (2) transfer the predominance of “export
promotion” activities to US&FCS, (3) focus TD’s activities on industry sectors, outreach, and



        4
         U.S. Department of Commerce, Office of Inspector General, Assessment of Commerce’s Efforts in
Helping U.S. Firms Meet the Export Challenges of the 1990s, (IRM-4523, March 1993).

                                                     -8-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


advocacy, (4) focus MACs efforts on trade agreements compliance, analytical work, and policy
support, and (5) centralize duplicative administrative functions within ITA’s Office of
Administration. The Under Secretary recently held an “all-hands” meeting with ITA employees
to present his proposal.

The reorganization plan includes a proposal to move the Trade Information Center and the
functions of the Office of Export Promotion Coordination, TD’s primary export promotion
offices, to US&FCS’s Export Promotion Service (EPS). The Advocacy Center, however, will
remain in TD. The plan proposes to move the Business Information Service for the Newly
Independent States and the Central and Eastern European Business Information Center, MAC’s
primary export promotion offices, also to EPS. With regard to US&FCS, it is proposed that
many foreign service officers based at headquarters will be sent to the domestic or foreign field
offices. Another major change proposed by the plan is to move duplicative administrative
activities, such as information technology, selected aspects of personnel, and worldwide security
to ITA’s Office of Administration.

Because the reorganization proposal lacks specificity in key areas, it is not possible to comment
on the substantive merits of the proposal. (The difficulty will be in the details.) However, we
concur with the general concepts of (1) clearly defining the agency’s objectives and each unit’s
specific tasks in accomplishing those objectives, (2) consolidating export promotion activities
within US&FCS, (3) moving duplicative administrative functions to ITA’s Office of
Administration, and (4) holding senior managers accountable for achieving the tasks as directed
by the Under Secretary.

In order to institutionalize these measures, the Under Secretary should revise the current
Department Organization Orders (DOOs) 10-3 and 40-1 to more effectively define the agency's
and its individual units’ roles and responsibilities in relation to exporters' needs. This will allow
ITA senior managers, including those in the Office of Administration, to be held accountable for
accomplishing their assigned tasks in a competent, cooperative, and coordinated manner. The
revised orders should, at a minimum:

       l       reduce overlapping administrative and programmatic functions;

       l       remove organizational barriers that inhibit internal coordination and cooperation;

       l       create a more coordinated focus on ITA’s core missions; and

       l       centralize cross-cutting administrative functions in the ITA Administration unit,
               eliminating duplicate units in individual program areas.




                                                 -9-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999




In his response to our August 31, 1998, draft report, the Under Secretary for International Trade
stated that: “ITA generally concurs with recommendations contained in this section of the report.
However, the report fails to recognize recent improvements.” Although we cited several
instances of improved coordination in the draft report, we have adjusted our final report in
response to the Under Secretary’s comments.

The response also quotes a portion of a sentence in the draft report that read: “ITA has not
changed dramatically since observations made in the 1993 report.” ITA officials noted that
“many of ITA’s business processes and approaches to trade promotion have changed since
1993.” The response highlighted their efforts at reducing trade barriers, the advancements in
Internet use, and their general reinvention of the way trade promotion services are rendered to its
customers. ITA officials took our statement almost completely out of context. The complete
sentence actually read “Unfortunately, the functional and organizational structure of ITA has
not changed dramatically since observations made in the 1993 report.” This statement is true.

The Under Secretary did agree with us that better communication among ITA units is desirable
and needs improvement in some areas. He asked for specific examples where we found that
communications had a deleterious effect on specific trade promotion activities. We are available
to meet with ITA officials to discuss any details that continue to be considered ambiguous.




                                               -10-
U.S. Department of Commerce                                                                  Final Report IPE-9904
Office of Inspector General                                                                            March 1999


II.     US&FCS Is Pursuing Several Initiatives to Help Achieve Its Congressional Mandate

US&FCS is a global network—unique among federal agencies—strategically located in more
than 220 cities worldwide to assist U.S. exporters. Overseas, the US&FCS has offices in
78 countries, which reportedly represent more than 95 percent of the world market for U.S.
exports. In the United States, US&FCS operates a “hub-and-spoke” network of EACs, which
offer companies a comprehensive range of export facilitation services in one location.

As shown below, US&FCS offers a number of core export promotion products and services,
most of which are designed specifically for small- and medium-sized companies. Some domestic
and overseas offices offer other products or services that are specific to their location.


  Matchmaker Trade Delegation Program. This service links U.S. firms with trading partners abroad to help
  U.S. business expand sales to markets around the globe.

  Gold Key Service. US&FCS trade specialists in a target country will arrange appointments for a U.S.
  exporter with prescreened contacts whose interests and objectives match those of the client.

  International Buyer Program. This service helps U.S. companies achieve their international marketing
  goals through participation in domestic trade shows. Each year the Department selects more than 20 leading
  U.S. trade shows to promote worldwide through US&FCS’s global network of offices. Commercial specialists
  at U.S. embassies and consulates abroad conduct promotion campaigns for each International Buyer Program
  show. Qualified buyers and prospective representatives and distributors are recruited from all over the world to
  travel to the show and see U.S. products firsthand.

  Industry Sector Analyses. These are in-depth, structured reports on a broad range of industries that include
  information on: market potential and demand trends; market size and import statistics; competition; market
  access; regulations and standards; and best sales prospects.

  International Market Insights. IMIs report on specific foreign market conditions and upcoming
  opportunities for U.S. business. They cover a variety of topics, such as: competition, trade laws and
  regulations, trade show opportunities, recent market developments, upcoming major projects and purchases,
  and economic/trade statistics.

  Customized Market Analysis. CMA reports provide clients with an assessment of how their product or
  service will sell in a given market.

  Trade Opportunity Program. This service provides prescreened leads that are gathered and transmitted to
  the U.S. every work day by commercial specialists in U.S. embassies and consulates abroad. Exporters respond
  directly to the contacts listed for the leads of interest.

  Agent/Distributor Service. An ADS provides information on up to six prequalified potential agents or
  distributors of a client’s product in a particular market.




                                                        -11-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


Consistent with the requirements of the Omnibus Trade and Competitiveness Act of 1988,
US&FCS is also making efforts to improve the interaction between its foreign and domestic staff
to offer improved service to U.S. exporters. These efforts are being accomplished, in part,
through the agency’s revised integration initiative and its Teams Initiative.

A.     US&FCS is working to comply with requirements of the Omnibus Trade and
       Competitiveness Act of 1988

In several of our recent inspections and audits of US&FCS overseas operations, we noted that the
US&FCS was generally delivering services effectively, despite facing some management
constraints internal to ITA and US&FCS. The Trade Act of 1988 requires that US&FCS carry
out several specific activities, such as the following seven tasks included in the Act:

            "(1) Identify the United States businesses with the potential to
            export goods and services and providing such businesses with
            advice and information on establishing export businesses;"



US&FCS publishes and disseminates guides on how to establish export businesses and trading
companies. US&FCS offices also coordinate and participate in "how to export" seminars with
the Small Business Administration, state and local agencies, and others. US&FCS is
concentrating its resources on identifying and assisting small and medium sized “export ready”
firms rather than on assisting firms that are interested in establishing export businesses in the
future. Hence, the Congress can expect US&FCS to provide its clients with more advice on
expanding an export business than on establishing one. ITA also provides information to U.S.
exporters through its Trade Information Center, the Central and Eastern European Business
Information Center, and the Business Information Service for the Newly Independent States.


                "(2) Provide United States exporters with information on
                economic conditions, market opportunities, the status of
                the intellectual property system in such country, and the
                legal and regulatory environment within foreign
                countries;"




US&FCS collects and disseminates a vast amount of information to help U.S. firms. The
National Trade Data Bank is one tool used by US&FCS to disseminate valuable trade



                                               -12-
U.S. Department of Commerce                                                       Final Report IPE-9904
Office of Inspector General                                                                 March 1999


information to a wide audience. US&FCS is also trying to have an active Internet site for each of
its field offices. These efforts, if done effectively, should assist in getting relevant information to
those that need it.

The information that is being disseminated is valuable to U.S. firms in weighing the
opportunities and risks associated with a particular market. For example, ISAs, prepared by
US&FCS posts overseas, examine a particular industry sector, the size of the market, its growth
prospects, and its potential for market penetration by a U.S. exporter. In conjunction with the
embassy's economic section, US&FCS prepares assessments of the host country's economy and
its future prospects.

                "(3) Provide United States exporters with information
                and advice on the necessary adaptation of product design
                and marketing strategy to meet the differing cultural and
                technical requirements of foreign countries;"




US&FCS provides information on adapting products and marketing strategies to a country's
unique requirements through a variety of methods: seminars and briefings, individual counseling
and response to direct company inquiries, periodic publications, customized market research, and
referrals. Our recent overseas inspections have confirmed that the overseas posts are most
helpful in responding to individual requests for specific information, since the range of products
varies widely. US&FCS also relies on other Commerce bureaus to support its efforts to provide
information to potential U.S. exporters seeking to position their products for foreign markets.
NIST, for example, provides information on standards and certification procedures.


                       "(4) Provide United States exporters with
                       actual leads and an introduction to contacts
                       within foreign countries;"




US&FCS fulfills this requirement in a variety of ways, most notably through its Gold Key
Service, Agent/Distributor Service, Matchmaker Program, and International Buyer Program.
During this review and prior OIG reviews of USEACs and overseas posts, many individuals
noted that the Gold Key Service is the most valuable product or service provided by US&FCS.



                                                 -13-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999



               "(5) Assist United States exporters in locating reliable
               sources of business services in foreign countries;"




The overseas arm of US&FCS helps exporters locate reliable sources of business services in
foreign countries. Overseas staff develop contacts with local providers of business services, such
as bankers, attorneys, customs facilitators, and conference facility managers. In addition, through
its corps of knowledgeable foreign service nationals, US&FCS can provide its own translator
services to U.S. business representatives. US&FCS’s commercial centers overseas provide
short-term office space and business services to U.S. businesses.


             "(6) Assist United States exporters in their dealings with foreign
             governments and enterprises owned by foreign governments;"




Commercial specialists overseas develop working relations with foreign governments as a matter
of course. They also have contact with ministers of commerce and other local government
officials. Additionally, with the added attention being given to export promotion by other U.S.
government agencies, such as Agriculture, USAID, and State, overseas embassies often help U.S.
businesses by providing contacts with their counterparts in the host country's government.

              "(7) Assist the coordination of the efforts of state and local
              agencies and private organizations which seek to promote
              United States business interests abroad so as to maximize
              their effectiveness and minimize the duplication of efforts."




US&FCS has created a “one-stop-shop” in its domestic export assistance center network to
address this requirement. These centers collocate US&FCS trade specialists with representatives
from the Small Business Administration and Export Import Bank to provide export counseling
and assistance in the areas of finance and to actually help clients get their product or service



                                               -14-
U.S. Department of Commerce                                                             Final Report IPE-9904
Office of Inspector General                                                                       March 1999


overseas. US&FCS also fulfills this requirement through its formal and informal arrangements
with external organizations--often referred to as partnerships. US&FCS partner organizations
include chambers of commerce, trade associations, state and local governments, and other public
or private international trade development groups. These organizations work in partnership with
US&FCS to endorse, promote, or deliver programs, services, and initiatives that help expand
U.S. exports. In addition, US&FCS’s domestic offices and overseas commercial centers often
partner with and, in some cases, collocate with state offices of economic development, other
federal trade-related agencies, and federal grant recipients, such as the grantees in ITA’s Market
Development Cooperator Program5.

B.      US&FCS’s implementation of integration has had mixed results

US&FCS is striving to integrate its domestic and foreign personnel by providing opportunities
for international staff to serve domestically and for domestic staff to serve internationally. This
combined experience is viewed as key to delivering high-quality counseling and other services to
U.S. companies, increasing organizational productivity and effectiveness, and strengthening the
capacity of staff to use the entire global network to meet client needs. The purpose behind the
integration of the two services is to enhance client servicing, promote “seamless” organizational
operation and service delivery, and build staff skills. To quote the 1994 National Export
Strategy:

        “The US&FCS network is composed of two distinct work forces: domestically,
        civil service trade specialists who counsel U.S. businesses in their local
        communities; and overseas, foreign service officers who assist visiting firms.
        This division has two major shortcomings. First, domestic staff often lack
        opportunities to gain ‘hands-on’ work experience in foreign markets—essential to
        counsel clients authoritatively. Second, foreign service officers typically spend
        most of their careers abroad, and have fewer opportunities to work in the United
        States, where most business is generated.”

The Congress also recognized the importance of an integrated service to promote U.S. exports
both domestically and internationally. In a report by the House Committee on Foreign Affairs,
the Committee elaborated on the expected benefits of increased integration:

        “The Committee believes that the effectiveness of and utility of the [U.S. and
        Foreign Commercial] Service in promoting U.S. exports and in protecting U.S.
        business interests abroad would be enhanced by a rotation of domestic and foreign



        5
          The Market Development Cooperator Program was established in ITA to provide grants to organizations
to develop, maintain, and expand foreign markets for nonagricultural goods and services produced in the U.S.

                                                     -15-
U.S. Department of Commerce                                                             Final Report IPE-9904
Office of Inspector General                                                                       March 1999


        field personnel. While one objective of Commerce district offices is to provide
        continuity in service to the local community, in the Committee’s view, the end-
        users of the Department of Commerce’s export promotion services would benefit
        more from more frequent rotation in tours among Foreign Commercial Service
        Officers, senior district office trade specialists, and senior trade specialists from
        ITA Headquarters.”

Beyond the basic objective of exchanging both domestic and overseas staff, the integration of
US&FCS domestic and foreign personnel faces practical hurdles, such as coordinating differing
assignments and resource allocation processes, providing adequate training to staff who make
domestic/international transitions, and coordinating personnel practices of the foreign and civil
service systems. Although several employees from MAC, TD, and IA have moved to US&FCS
domestic or overseas field offices, integration, thus far, has focused primarily within the
US&FCS field and headquarters operations

In the past, US&FCS officials have stated that they expect the integration of the domestic and
foreign services to take many years. The change involves the integration of two different
“corporate cultures,” involving individuals who have different expectations as to the type of
work they are to perform and where they will be expected to live.

In our March 1996, report on U.S. Export Assistance Centers6, we recommended that the
Director General develop a clear and concise strategy aimed at simultaneously (1) promoting
US&FCS’s foreign and domestic “integration” initiatives, and (2) developing a plan to staff the
USEACs with personnel having significant overseas trade experience, e.g., by providing
incentives to encourage foreign service officers to bid on domestic tours, making directed
assignments of foreign service officers (FSOs) to domestic positions, and offering excursion tour
opportunities to USEAC staff members.

In our discussions with staff in the field, many indicated that the integration initiative required
additional management attention and some reevaluation. Although a number of US&FCS staff
with whom we met agree with the philosophy of integration, many were disappointed with how
the initiative was originally implemented, citing poor planning and insufficient consideration of
the many domestic staffers who were viewed as high-performing but who may not want to or
cannot easily pick up and relocate at this point in their career. In addition, many staff we spoke
with noted that integration has not always been beneficial to FSOs’ career advancement.




        6
         U.S. Department of Commerce, Office of Inspector General, U.S. Export Assistance Centers Offer Reason
for Optimism, but May Fall Short of Expectations, Inspection Report Number IPE-7130, March 1996.

                                                    -16-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


As reported by US&FCS, as of February 1998, the foreign service has 23 people on limited
appointments from the civil service (seven from export assistance centers and 16 from US&FCS
headquarters). There are 21 FSOs located domestically (11 in domestic field offices and 10 in
headquarters positions). At the time of our review, there were also nine new foreign service
officers assigned under the integration program to export assistance centers for their first tour.
Consequently, the total number of officers located in domestic field offices is 20. We learned
from data prepared by US&FCS officials that no FSO located in the domestic network received a
promotion, presidential meritorious service award, executive schedule pay adjustments, senior
foreign service performance pay, or performance award in fiscal year 1997. Only one FSO
located in the domestic field received a meritorious step increase. Out of a total of 103 awards
and promotions given to US&FCS FSOs, only one was given to those located in EACs and eight
given to those located at headquarters in fiscal year 1997.

Recognizing the problems with the implementation of the integration initiative, in May 1997, the
Acting Director General initiated a review of the integration program and concluded it had
become “too complicated, and increasingly bound by new rules and processes that would be
extraordinarily difficult to administer, and, in some cases, would cause unnecessary budget
liabilities and disruption to programs.” The review included an extensive dialogue throughout
the organization over a six-month period on how to effectively integrate its staff without such
disruption. We also shared with the review team our concerns with the initial integration
initiative.

In its ensuing February 1998, bulletin incorporating the findings and recommendations from the
Director General’s study, US&FCS affirmed the importance of integration but outlined some
significant changes. US&FCS stated that “the goal of the integration program is to create a
single globally-minded export promotion workforce equipped with the skills and combined
domestic and international experience to support and assist U.S. business throughout the world.”
In part through integration, US&FCS hopes to “provide an institutional and systematic means to
ensure (1) domestic-based field staff obtain the ongoing ‘hands on’ international experience
needed to counsel U.S. firms effectively, and (2) international-based field staff have the
opportunity to bring their experience to bear in the U.S. and to acquire the client’s perspective
from working with firms in the United States.” The agency also hopes to foster a common
corporate and career vision for domestic and international trade specialists and FSOs focused on
promoting U.S. exports at companies’ place of business both domestically and internationally.
Table 3 illustrates a comparison (based on material provided by US&FCS) of major elements of
the previous integration program and the revised program as a result of the agency’s recent study.




                                               -17-
U.S. Department of Commerce                                                           Final Report IPE-9904
Office of Inspector General                                                                     March 1999


Table 3: Comparison of Original Integration Initiative and Revised Integration Initiative


      Original Integration Initiative                             Revised Integration Initiative

                                            Overall Approach

!      Adopt foreign service (FS) system for all              !   Continue to use both foreign and civil
       senior field positions—domestic and                        service systems.
       overseas.
                                                              !   No wholesale conversion of CS to FS.
!      Convert all senior field EAC/USEAC                         Instead, create structured opportunities
       positions from civil service (CS) to FS as                 for FS to serve domestically and for CS
       they become vacant; discontinue senior                     to serve internationally.
       CS-based positions.

                                                    Planning


!      No strategic plan to guide hiring and                  !   Conduct “flow-through analysis”
       position management.                                       annually to determine number of FSOs
                                                                  needed at each grade, need for new
                                                                  officers/positions, and options for
                                                                  managing the initiative. Create strategic
                                                                  hiring/placement plan accordingly.

                                                     Hiring

!      Ad hoc FS hiring (unpredictability                     !   Conduct FS hiring “assessment” every
       prevents employee career planning).                        two years, based on results of flow-
                                                                  through analysis.

                                                              !   Revise hiring criteria for senior domestic
                                                                  jobs to value importance of overseas
                                                                  experience.

                                         Position Management

!      Convert all CS 13/14/15 field positions to             !   Establish opportunities for FS and CS
       FS. FS career will include ongoing                         staff to obtain both overseas and
       domestic and overseas postings.                            domestic experience. For FS, reserve
                                                                  limited number of domestic positions to
                                                                  be filled by FS. For CS, continue to
                                                                  provide opportunities to serve overseas
                                                                  under non-career limited appointment to
                                                                  FS.




                                                      -18-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


Other major requirements of the previous integration program relating to assignments and
advancement, including requirements that (1) FSOs must serve a domestic and international tour
to be eligible for tenure, (2) domestic field positions at the GS-13 level will be placed in the FS,
and (3) FSOs must serve a domestic assignment to be eligible for the senior foreign service, were
either terminated or replaced with less stringent requirements.

Although there will continue to be detractors to US&FCS’s integration efforts, primarily because
change is inherently disruptive and threatening, the agency’s revised approach to integration
addresses many concerns that we had and that were expressed by US&FCS employees during our
review. We believe that the mid-course correction US&FCS has adopted is appropriate because
it removes a number of seemingly unwavering restrictions and requirements. We recommend
US&FCS periodically evaluate the integration initiative to ensure that it is delivering the desired
results.

C.     The “Teams Initiative” could be a major tool in improving the effectiveness
       of ITA’s trade promotion efforts

US&FCS’s Teams Initiative was implemented to provide its domestic staff an effective vehicle
to help carry out its trade promotion activities. Teams can be characterized as self-managing
work units that have common goals and mutual accountability for attaining those goals. Within
US&FCS, teams are generally made up of trade specialists located throughout the nation whose
common goals are centered around promoting exports for a particular industry sector or to a
specific geographic region. Some teams also include staff from overseas offices, industry
specialists from TD, and country specialists from MAC. Team membership is determined by
mutual agreement between team members and their management with the goal of serving a
targeted client base and providing training in the trade specialist’s area of industry and/or region
of interest.

Proponents of the Teams Initiative believe that teams have the potential to contribute to
(1) expanded opportunities for leadership, enabling US&FCS trade specialists to become team
leaders, (2) expertise in specific countries and industry sectors by encouraging its members to
share their industry and regional knowledge with each other, and (3) the integration process,
given that the domestic and overseas staff work together on teams and thereby gain a better
appreciation and understanding of each other’s functions.

According to US&FCS’s Team Initiative mission statement:

       “Teams exist within the US&FCS as a complement to their traditional
       management structure and as a way to organize resources in support of their
       efforts to increase U.S. exports. By leveraging the expertise and knowledge of all



                                                -19-
U.S. Department of Commerce                                                       Final Report IPE-9904
Office of Inspector General                                                                 March 1999


       its resources, US&FCS Teams support ITA trade promotion priorities and offer a
       way to deliver services to its clients.”

In its mid-year Team Highlight report, US&FCS states that its trade specialists attribute
49.6 percent of all their export actions for the first half of fiscal year 1997 to their work on teams.
The report also states that, “One of the most significant accomplishments cited repeatedly [about
teams] was the increase in event coordination and cooperation between the teams and overseas
posts, as well as with Trade Development, [Export Promotion Service], and other partners.” For
instance, senior commercial officers (SCOs) from the Western Hemisphere, Asia Pacific, Europe,
and South Africa met with team members to discuss coordination of events, new initiatives, and
improved communication between the domestic and overseas staff. Although we are not aware
of the actual substantive results, the meeting was at least successful in opening greater dialogue
between the involved parties. In addition, the overseas posts are now able to target their market
research and trade opportunity leads to the appropriate industry or regional team–leading to faster
distribution of this information to the appropriate US&FCS clients.

In an effort to increase their client databases and support outreach efforts, several teams
participated in seminars and conferences with other trading partners. For example,

l      The Services team organized a seminar with a large consulting firm on
       architecture/engineering services that included speakers from Export-Import Bank, the
       Trade Development Agency, and ITA’s Advocacy Center.

l      The Western Region Environmental Technology team organized a conference with the
       U.S.-Asia Environmental Partnership Program in Taiwan for an environmental
       technologies delegation visiting Ontario, California. Both US&FCS and TD’s Office of
       Environmental Technologies Exports assisted with the conference.

US&FCS officials have stated that teams need to continually evolve in order to best support ITA
priorities and, more importantly, its clients. For example, last year the former Central Eastern
European and Newly Independent States team merged with the Western Region Europe team to
better coordinate its activities with Showcase Europe (a US&FCS initiative designed to promote
exports to European nations). In addition, the former South Africa team has now expanded to
form an Africa team in order to support the President’s Africa Initiative to promote U.S. trade
with other key markets throughout the continent. US&FCS’s teams for fiscal year 1998 include:




                                                 -20-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


Table 4: US&FCS Country and Industry Teams
          Country Teams                                 Industry Teams
 Africa                          Aerospace and Defense            Information Technologies
 Asia Pacific                    Apparel                          Minority
 Europe                          Environmental Technologies       Rural Export
 Western Hemisphere              Healthcare Technologies          Services

We agree with US&FCS that teams can foster streamlined communication, help coordinate event
planning, and target flows of market research to US&FCS clients. We believe that effective team
building in US&FCS could continue to be beneficial to ITA, especially in promoting more
effective cooperation among the key units and players. However, we also believe that the full
potential of teams remains untapped. In order to achieve the highest degree of success, teams
should not only coordinate their activities within US&FCS, but also more effectively with TD
and MAC. Although there are some teams now that routinely coordinate their activities with
these units, we found that this was not a consistent practice among all of the teams. Since
US&FCS teams are built around regions or specific industries, we believe that it is not only
logical, but valuable to coordinate team activities with ITA’s regional (MAC) or industry experts
(TD).

The Services team is a prime example of how coordinating with other in-house experts can help
develop new programs and services for US&FCS clients. In fiscal year 1997, the Service team
focused its efforts on improving market research from overseas posts to better support U.S.
service companies. They teamed with EPS and TD’s Office of Service Industries to develop a
methodology for assisting posts in assessing the market potential for service exports.

Additionally, we believe that a trade specialist’s membership on a particular team should be
consistent with the priorities of his or her domestic office. We conducted a team membership
analysis of two of the larger US&FCS teams: Environmental Technologies and Healthcare
Technologies. Both of these teams are broken down into four regional teams: Eastern, Mid-
Eastern, Western, and Mid-Western. With two minor exceptions, we found that the team
membership for these two teams appears to be consistent with the target industries of each office.
Specifically, all of the team members on the Healthcare Technologies team matched the locations
of the targeted industries including, but not limited to: biotechnology, healthcare services,
laboratory instruments, medical equipment, pharmaceuticals, animal health, laser technology, and
dental equipment.




                                              -21-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


In the case of the Environmental Technologies team, we found that team membership in three of
the regions (Eastern, Mid-Eastern, and Western) was consistent with their offices’ target
industries including, but not limited to: environmental products, pollution control equipment,
waste water treatment equipment, water resources equipment and services, environmental
engineering services, and industrial chemicals. However, in the Mid-western region’s
Environmental Technologies team, we found two instances (Milwaukee and Minneapolis) where
the team members’ office did not include environmental technologies as a priority industry. We
encourage US&FCS management to periodically conduct an analysis of its teams membership to
ensure that trade specialists membership on a particular team is consistent with the priorities of
his or her domestic office.

We also have a concern regarding the location of the Teams Initiative manager. Although
US&FCS has a designated position for a Teams Initiative manager, the physical location of this
position is in San Francisco–not Washington D.C. Consequently, the importance of the initiative
is sometimes not clearly noted by managers in the field because they do not see the initiative
stemming from headquarters. This is a concern because some USEAC/EAC managers may be
less likely to accept that a staff member is working on a team project that might not directly or
clearly contribute to that individual office’s statistics and accomplishments, but might more
effectively contribute to the overall objective of expanding U.S. exports. In addition, since the
success of this program relies on participation from both the domestic and foreign side of
US&FCS, we believe that the position of Teams Initiative manager, and in turn the initiative
itself, would have more visibility and credibility if it were moved to headquarters. This move
should also enhance the opportunities to expand the participation of TD and MAC in the Teams
Initiative, where appropriate.




In their response, ITA officials generally agreed with the observations made in this section. The
response pointed out a few clarifications and minor corrections. ITA also noted that it is
“undertaking a review of its product line to encourage the development of new products and
services to better serve our clientele.”




                                               -22-
U.S. Department of Commerce                                                                Final Report IPE-9904
Office of Inspector General                                                                          March 1999


III.    ITA Needs to Improve Its Planning and Oversight of the Agency’s
        Information Technology

Information technology is becoming more integral to ITA's ability to improve the quality and
timeliness of the export counseling and trade information it provides to its clients. Information
technology is serving as an essential tool in today’s business environment. Electronic
Commerce7 alone is making it easier for businesses to expand their operations domestically and
internationally. With the Department being one of the lead agencies in technological advances
and Electronic Commerce, ITA, as it moves to the 21st century, must be able to use the available
technology to effectively communicate and interact with clients and amongst its own staff.

In order to best serve its clients, ITA–both in the United States and overseas–must be able to
effectively and efficiently (1) make available current export counseling and market information,
(2) communicate between its network of overseas, domestic, and headquarters operations, and (3)
track and follow-up with its clients. Recent advances in information technology, such as
"groupware"8 and the Internet, can enhance ITA's ability to provide these services by facilitating
in-house information sharing and new methods for delivering products and services to clients.

US&FCS, comprising about 60 percent of ITA staff, has recently taken steps to lay a foundation
for leveraging information technology to better serve U.S. exporters. At the start of this review,
we found extremely limited information technology capabilities at US&FCS headquarters and its
domestic and foreign field offices. In the past year, however, US&FCS, and in particular its
Office of Domestic Operations, brought together US&FCS’s many consultants to modernize its
technological capabilities. More specifically, in its efforts to upgrade its office automation
infrastructure, improve client tracking, and develop a standard system platform for sharing
information, US&FCS:

l       reports that by the end of fiscal year 1998, its domestic field offices will have office
        automation capabilities comparable to those of the American business community,
        including capabilities such as modern desktop computers connected to local area
        networks, a high-speed telecommunication network connecting domestic sites and
        headquarters, and Internet access;




        7
         In basic terms, Electronic Commerce is a means of conducting business transactions through the use of
information technology, primarily the Internet.
        8
          Groupware is a platform for developing information systems that helps geographically dispersed groups
collaborate and coordinate work activities. Key components are a shared centralized database and networked
communications.

                                                      -23-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


l      is in the process of replacing its older system for managing its client contact lists, the
       Commercial Information Management System–which trade specialists were reluctant to
       use because it was reportedly too time consuming and complex–with a new client
       tracking database–Client Management System (CMS). The initial version of CMS has
       been deployed to domestic field offices and it is being adapted for overseas posts and the
       EPS; and

l      adopted a groupware package called Lotus Notes for building information systems. Lotus
       Notes, already used by the other ITA units, should make it easier, from a technology
       standpoint, to share information and integrate the various databases across ITA.

Despite this progress, we found several information technology-related problems during our
review such as: (1) US&FCS did not have a permanent office with leadership responsibilities in
the area of information technology, (2) US&FCS did not have an adequately structured system
development methodology, and (3) US&FCS did not adequately plan or budget for its
information technology modernization. Although our concerns focus primarily on US&FCS’s
efforts to modernize its information technology, we address a number of our recommendations to
ITA because, as discussed below, the Under Secretary plans to centralize overall responsibility
for information technology in ITA’s Office of Administration.

Office with leadership responsibilities in the area of information technology is needed

US&FCS does not have a permanent office to manage its information technology projects.
US&FCS’s Office of Information Systems (OIS) has historically managed US&FCS’s
information technology requirements. However, OIS's leadership responsibility in this area
recently shifted to a small team within ODO. ODO took it upon itself to initiate the
much-needed modernization of the US&FCS's office automation infrastructure. Because of the
perceived success of the domestic field modernization, which is not yet completed, US&FCS
management has now directed this team to also modernize the information technology systems of
the foreign field offices within ITA’s Office of International Operations (OIO).

Despite its noted achievements, ODO does not have a permanent mandate to manage US&FCS’s
information technology projects, and we do not believe that OIS is currently prepared to assume
this role. During our review we heard many complaints about OIS’s perceived inability to fulfill
the needs of the US&FCS field offices. Several individuals have complained that OIS’s focus
has historically been only on headquarters operations and the office lacks expertise in new
technologies. US&FCS management appears to have recognized OIS's limitations and is
planning to update the skills of its in-house and contractor staff. OIS’s responsibilities have been
revised to include: (1) continuing to operate the US&FCS's communication network, (2) sharing
responsibilities for procurement, training, and technical support with regional and field offices,



                                                -24-
U.S. Department of Commerce                                                               Final Report IPE-9904
Office of Inspector General                                                                         March 1999


and (3) developing some information systems, e.g., an asset management system. However,
OIS's new mandate does not include taking a leadership role in managing information technology
projects. The Under Secretary’s proposed plan for reorganizing ITA recommends that this
leadership role for US&FCS, and other ITA units, be placed in ITA’s Office of Administration,
specifically, merging OIS with the Office of Administration’s Office of Information Resources
Management (OIRM).

Conceptually, the Under Secretary’s proposed plan appears to be a good idea. Centralized
management would promote ITA-wide development of more effective cross-cutting solutions for
information systems9 and Electronic Commerce. Elimination of duplicate functions and
economies of scale in the future could reap economic rewards. When ITA replaces its two
different headquarters networks with a single network, operations and maintenance can be
consolidated.

However, ITA should be aware of the significant effort involved in transforming OIRM’s culture
and improving its technology and management capabilities so that it can adequately assume an
agency-wide leadership role. First, OIRM has traditionally focused on headquarters operations to
the detriment of the field. OIRM will have to make a concerted effort to become involved in
field operations in order to learn its requirements. It should work closely with ODO and its staff
who have effectively spearheaded much of US&FCS’s IT modernization. By taking over OIS’s
maintenance and support functions, which are shared with the field, OIRM should be able to
become familiar with field operations. Second, OIRM will have to develop expertise with the
technology that US&FCS is using and with the technology ITA needs for the future (e.g.,
Electronic Commerce). Lack of familiarity with these two issues is the same problem that
hindered OIS’s ability to lead.

If indeed ITA assumes the leadership role in the area of information technology for the entire
agency as suggested in the proposed reorganization, ITA must ensure that OIRM has the
expertise to address agency-wide information technology issues, to include (1) planning and
managing system infrastructure development projects, (2) identifying, understanding, and
adequately servicing the needs of ITA field offices and assisting in their support and maintenance
needs, (3) keeping abreast of advances in technology to enhance internal operations and client
servicing, (4) developing information technology policies and standards for the entire agency
based on its strategic plan, and (5) holding the individual components accountable for complying
with established policies and directions. Finally, it is important that OIRM, with its new



        9
          In a 1995 study, a consulting firm recommended that ITA and US&FCS create a strategic marketing
information system that would link data collected from business processes conducted throughout ITA. This cross-
correlated information could be used to better understand clients, tailor and target products and services, and
measure effectiveness of these products and services.

                                                      -25-
U.S. Department of Commerce                                                                  Final Report IPE-9904
Office of Inspector General                                                                            March 1999


centralized authority, allows US&FCS to complete the modernization of its field offices and
implementation of CMS within US&FCS.

A more structured system development methodology is needed

As ITA assumes greater responsibility for agency-wide information technology, it should put into
place a more structured system development methodology to control the evolution of CMS and
the development of other information systems. The initial version of CMS that was deployed to
domestic field offices was developed using a small, three-person team from STAT-USA.10
Small, cohesive teams are sometimes advantageous for developing new systems and require
minimal controls. However, as products mature and development demands increase, controls
over the development process, such as configuration management of system code and
programming standards, are required to avoid confusion and incompatibility and to reduce the
complexity of system maintenance. Currently, neither ITA nor US&FCS has these elements of a
development methodology in place.

Demands on US&FCS’s development capabilities are increasing. Currently, US&FCS is
maintaining one fielded version of CMS, adapting two versions for OIO and EPS, and planning a
version for use by other ITA agencies. In the future, US&FCS plans to develop other Lotus
Notes information systems (e.g., the Trade Event Management System) and Electronic
Commerce capabilities. To manage larger and possibly multiple development teams11 and to
ensure that systems are compatible and maintainable, ITA should define a more structured
system development methodology that includes configuration management for controlling
working and released versions of systems; standards for programming, documentation, and using
Lotus Notes and Electronic Commerce; and a process for defining system requirements based on
end-user participation.

Budget and planning for information technology upgrades have been insufficient

US&FCS states in its November 1997 information technology strategic plan that it needs to
establish a process for planning information technology investments. Historically, management
has been reluctant to allocate funds for major information technology initiatives. For example, at
the time of our review, no funds had been in the budget for the modernization of the US&FCS’s




         10
          STAT-USA is a component of Commerce’s Economics and Statistics Administration and is working on a
cost-reimbursable basis for US&FCS.
         11
              For example, currently OIS is developing an asset management system and EPS is developing Internet
sites.

                                                         -26-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


office automation infrastructure; the recent upgrades were financed using fiscal year 1997 end-of-
year funds.

US&FCS’s current strategic plan does not justify new information technology investments. The
plan does not clearly describe current or future information system or Electronic Commerce
projects. US&FCS does not have a strategy for leveraging its new groupware capabilities nor has
it been able to define Electronic Commerce priorities. Now that information technology is
becoming more important to US&FCS’s ability to improve its client services, the agency must
place more emphasis on information technology planning and budget for its needs.

Such planning is especially important if US&FCS is going to be able to complete building its
new information technology foundation as soon as possible, providing modern office automation
technology to its trade specialists. At the end of our field work, plans called for completing the
modernization of foreign field offices in the first quarter of fiscal year 2000. The modernization
team told us that it hopes to accelerate this process after it has evaluated the lessons learned from
modernizing the first 29 foreign field offices (out of 160).

We also reviewed ITA’s information technology plan. We found it to be well organized and
containing useful information concerning system projects. However, in their plan, ITA officials
admit that they too must improve their information technology planning. We believe that ITA’s
information technology plan should contain more information about information technology
projects within ITA’s subordinate units, including US&FCS. A more detailed and integrated
information technology plan would provide greater direction for ITA, US&FCS, and ITA’s other
units, and help convince management to allocate funds for necessary information technology
projects. ITA should work closely with US&FCS and its other units in developing the agency’s
overall information technology plan. Specifically, US&FCS and other ITA units should provide
ITA with their information technology requirements for maintaining and enhancing client
services.


In his response to our draft report, the Under Secretary stated that “ITA is in basic agreement
with the findings and recommendations contained and associated with Section III of this draft
report.” The response indicated that ITA has proposed an organization realignment that, in part,
will address these and other structural problems.

The Under Secretary also requested in ITA’s response that we elaborate on our recommendation
that ITA “[d]evelop a more structured system development methodology and staff capability to
manage the evolution of US&FCS’s Client Management System and the development of other
information systems and Electronic Commerce capabilities.” In our report, we describe in detail
three capabilities of a structured system development methodology and the reasons ITA needs



                                                -27-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


them to meet its current and future system requirements. To further clarify, ITA needs a
configuration management plan and appropriate automated support tools to control the
development of multiple versions of CMS possibly across multiple development teams so that
versions are compatible and developers do not interfere with one another. ITA needs standards
for the development of information and electronic commerce systems and the use of Lotus-Notes,
to, for example, provide a consistent look-and-feel to web sites and electronic commerce
capabilities and to reduce variations in techniques, products and protocols used to build ITA
systems. ITA needs a policy for defining and managing the growth of requirements. End-user
participation is essential to developing system requirements, but ITA will also have to temper
users’ desires with cost, schedule, and technical constraints. In addition, to effectively manage
development projects, ITA should also define a process for tracking project costs, schedule, and
system performance based on milestone deliverables and reviews.

In the agency’s response to our recommendation to improve their information technology
planning and budget process, the Under Secretary stated that “[w]e believe ITA has a strong IT
planning and budget process and that responsibilities are well-delineated and the planning
process is coordinated throughout ITA.” The response also requested that, in our final report, we
be “specific about recommended improvements.” The Clinger-Cohen Act of 1996 requires
federal agencies to take a more objective, results-oriented approach to selecting, managing, and
evaluating technology investments. Both ITA and the US&FCS have recognized that they need
to improve their technology planning process. We agree and recommend that an important first
step would be for ITA to provide more information in its technology plan for making technology
investment decisions.

Specifically, the plan should describe how Lotus-Notes and electronic commerce and ITA’s core
business systems (such as CMS) will be used to improve the delivery of services and products.
At the project level, the plan should describe each project’s purpose, justification, and benefits.
To understand technical details, the plan should provide an overview of the system’s
composition, interfaces, and commercial-off-the-shelf products and protocols being used. Finally,
to manage and track project development, the plan should describe the project’s schedule, costs,
and risks.

Since the date of ITA’s response and the completion of this final report, we have learned that
contrary to their response, ITA officials have amended their reorganization plan and will not
make the organizational changes indicated in the response. We reiterate that we believe it is
most effective for ITA’s Office of Administration, once its is sufficiently proficient in global
information technology issues, to provide the broad guidance and parameters for structuring the
agency’s information technology platform. Regardless of the ultimate organizational alignment
ITA chooses to address its information technology needs, we emphasize the need for a permanent
office that has the responsibility for IT planning and management.



                                               -28-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


IV.    Although TPCC Has Had Some Noteworthy Accomplishments,
       Some Improvements Are Needed

The Trade Promotion Coordinating Committee (TPCC) was first created, via a Presidential
Memorandum, in May 1990. The Secretary of Commerce was designated as chairman of the
TPCC, which included senior-level representatives from 18 federal agencies (see Appendix C for
a list of the 20 current TPCC member agencies). The TPCC’s mission is to ensure that the
federal government is doing all that it can to help U.S. companies, especially small and medium-
sized firms, take advantage of the opportunities the global marketplace affords.

Soon after TPCC was first created, both our office and GAO expressed concern about its lack of
authority to set a government-wide strategy or interagency program and budget priorities.
Subsequently, the Congress, through the Export Enhancement Act of 1992, directed the TPCC
to, among other things: (1) unify and streamline federal export promotion activities, (2) develop a
government-wide strategic plan for carrying out such activities, (3) propose appropriate levels
and allocation of resources among agencies for these activities, and (4) provide the President
with recommendations on improving Federal export promotion efforts. The statute also required
the Secretary of Commerce, as TPCC chairman, to submit an annual report to the Congress on
the status of the implementation of its strategic plan.

In our 1993 report on Commerce export promotion efforts, we noted that TPCC needed to
develop an action-oriented mission statement and strategic plan for accomplishing an effective
federal export promotion effort. Specifically, we recommended that the TPCC should:

l      Establish a set of priorities for federal export promotion programs, review the programs,
       and develop a plan to bring them in line with the priorities established;

l      Identify areas of overlap and duplication in federal export promotion programs and
       propose actions to eliminate them; and

l      Develop and propose a unified government-wide export promotion budget that supports
       funding of established program priorities and eliminates funding for areas of overlap and
       duplication.

Although we did not conduct a detailed evaluation of TPCC activities during our current review,
we did meet with TPCC officials to discuss the status of these recommendations. We found that
although the TPCC has made some progress in developing a government-wide strategy for export
promotion activities, further work is needed to encourage greater interagency coordination both
in the United States and overseas.




                                               -29-
U.S. Department of Commerce                                                                Final Report IPE-9904
Office of Inspector General                                                                          March 1999


A.      TPCC has made some progress toward establishing a government-wide
        strategy for export promotion activities

Since our 1993 report, the Department established a TPCC Secretariat in ITA to provide a
permanent point of contact for U.S. government agencies or private sector representatives
seeking information on TPCC activities. The Secretariat’s main function is to coordinate the
development and monitor the implementation of the National Export Strategy.12 In addition, the
current Secretary of Commerce appears to be taking an active interest in his role as chairman and
is meeting with his counterparts in the key TPCC trade agencies every few months. The last
group meeting, held in March 1998, dealt with the Secretary’s recent trip to Asia. It also appears
that the current Under Secretary for ITA is taking an active role in TPCC by meeting with his
counterparts every four to six weeks.

During fiscal year 1997, TPCC focused a great deal of its efforts on forestalling deep
congressional budget cuts that threatened the viability of the Export-Import Bank and the
Overseas Private Investment Corporation (OPIC). Both of these agencies are considered by
TPCC to be key components in ensuring export success for small and medium-sized U.S. firms.
In addition, TPCC established a set of priorities for federal export programs that focused on
foreign markets, centralized export services, and unfair barriers to export.

Regional working groups

TPCC officials informed us that because most of its agencies were not organized around specific
countries (e.g., OPIC), it abandoned the idea of giving agencies the responsibility to develop a
strategy by country. Instead, in an attempt to make better use of its resources, the TPCC decided
to reorganize itself around regions. During fiscal year 1997, six interagency regional working
groups were created: Asia (chaired by Export-Import Bank), Latin America (chaired by
Commerce), Central and Southern Europe (chaired by State), Africa (co-chaired by OPIC and
Commerce), and the Newly Independent States (chaired by Commerce).

These regional working groups, chaired at the Deputy Assistant Secretary level, are tasked with
analyzing U.S. export performance in each of the six regions, identifying the most important
commercial barriers in each region, and developing strategies to address them. The stated aim of
the working groups is to increase interagency communication, identify trade promotion barriers,
coordinate interagency trade promotion activities, and reduce overlapping and duplicative efforts.




        12
           The “National Export Strategy” is the TPCC’s annual report to the Congress that (1) establishes a
framework for improving the nation’s export promotion efforts and (2) provides information and updates on current
federal programs and activities supporting U.S. trade expansion.

                                                      -30-
U.S. Department of Commerce                                                           Final Report IPE-9904
Office of Inspector General                                                                     March 1999


The regional working groups meet on an ad hoc basis. However, we were told that currently both
the Asia and Africa working groups are meeting frequently. The Asia working group, in
particular, is working to develop a commercial strategy to address the region’s financial crisis.

TPCC officials believe that these groups provide the perspective necessary to develop region-
specific solutions to cross-cutting issues, such as bribery and standards, and to allow for greater
coordination on advocacy. Because not all issues apply to every region to the same degree, we
hope that this regional focus will enable TPCC to better target its resources on those priority
sectors within each region where U.S. products and services have the greatest market potential
and where concerted U.S. government action would help address unfavorable foreign
government practices and other trade barriers.

Allocation of resources among agencies

Through our discussions with TPCC officials, it appears that the committee still does not have
the authority or clout to adequately address the budget priorities or duplicative trade promotion
efforts amongst its member agencies. In October 1997, the Secretary of Commerce stated that
“...the TPCC must play a role in the budget process to ensure that our budget priorities are fully
aligned with our commercial policy goals.”13 Consequently, at the beginning of fiscal year 1998,
the TPCC Secretariat was tasked with reviewing each TPCC agency’s strategic plan with an “eye
toward duplication.” According to the TPCC’s Secretariat, it has completed its review of
strategic plans and subsequently developed a set of budget-focused recommendations aimed at
enhancing the commercial policy recommendations made in the 1997 National Export Strategy.
These recommendations were forwarded by the Secretary of Commerce to the Office of
Management and Budget in January 1998 for consideration in developing the President’s fiscal
year 1999 budget. This action appears to be TPCC’s first attempt to move beyond simply
reporting budget data and actually impact OMB budget decisions based on its strategic
objectives. We believe that this action is a step forward in identifying budget priorities and
reducing areas of overlap and duplication in federal export promotion programs.



According to ITA’s response to our draft report, the TPCC has made progress toward
establishing a government-wide strategy for export promotion activities. Specifically, it cites that
the Secretary of Commerce chaired six TPCC meetings in fiscal year 1998 including one full
principals meeting, two steering committee meetings, and three issue roundtables with the private
sector. The response also indicates that due to this high-level attention, as well as frequent



        13
          Testimony of Secretary of Commerce before the Banking, Housing, and Urban Affairs Committee,
United States Senate, October 24, 1997.

                                                   -31-
U.S. Department of Commerce                                                            Final Report IPE-9904
Office of Inspector General                                                                      March 1999


meetings by all levels in TPCC agencies, the TPCC was able to aggressively respond to the
financial crisis in Asia and undertake a number of new initiatives in the area of small businesses.

With regard to a unified budget on export promotion programs, ITA states that the TPCC has
been collecting unified trade promotion data since 1994. However, it will not be in a position to
make recommendations on allocations across agencies until it has performance measures for
export promotion programs from all agencies. The response also states that the United States is
the only country that does a separate accounting for its export promotion spending. The TPCC is
supposed to prepare a second memo to OMB during fiscal year 1999 that will focus on fiscal year
2000 priorities. According to the response, by focusing on next year’s budget, the TPCC hopes
to have a greater impact on setting priorities in the year 2000 budget process.

B.      TPCC should encourage greater interagency coordination overseas

Since the fall of 1996, we have conducted reviews of US&FCS overseas posts in Belgium,
Germany, Japan, Indonesia, Malaysia, Poland, Portugal, South Korea, Spain, Taiwan, and
Thailand.14 During these reviews, we found that coordination and cooperation between US&FCS
and other embassy components, such as the U.S. Agency for International Development
(USAID), Foreign Agricultural Service, Office of Defense Cooperation, the Department of
State’s Economic Section, U.S. Information Service (USIS), and U.S. Trade and Development
Agency, varied among the individual posts.

We believe that interagency coordination and communication at overseas posts can be a valued
asset to U.S. exporters. A lack of coordination among TPCC agencies at posts can result in
missed trade opportunities, inefficient operations, and embarrassing overlap and duplication. For
instance, during our 1996 inspection of US&FCS Poland, we found that Commerce and USAID
representatives at post did not interact well with each other on a programmatic level. For
instance, USAID funds numerous development projects, has hundreds of contractors who visit
developing countries every year, and frequently talks with foreign businesses and government
entities. Unfortunately, USAID was not routinely sharing this information about potential
business or U.S. trade leads and contacts with US&FCS. This was also true at other posts we
visited. We believe that US&FCS posts–especially those within the big emerging
markets–would be in a better position to inform U.S. businesses about potential trade leads if a
greater effort was made to increase the interaction between U.S. agencies working in the same
country on business, trade, or development-related matters.




        14
         See US&FCS Post in Germany (IPE-9287, August 1997), US&FCS Post in Indonesia (IPE-9285, May
1997), US&FCS Post in Malaysia (IPE-9284, April 1997), US&FCS Post in Poland (IPE-9288, April 1997), and
US&FCS Post in Thailand (IPE-9286, April 1997). The remaining reports are either in draft or being drafted.

                                                    -32-
U.S. Department of Commerce                                                                 Final Report IPE-9904
Office of Inspector General                                                                           March 1999


Lack of coordination can also result in inefficiencies. In both Germany and Thailand, US&FCS
was either unaware or simply did not pursue opportunities to share space and resources with
USIS. US&FCS officials were not familiar with all that USIS could provide, including assisting
US&FCS library customers in Thailand with on-line and walk-in access to CD-ROM
information, collocated reference material, support for an Internet site, and other library services.
Similarly, US&FCS has not taken advantage of meeting space, trade information, and possible
joint efforts with USIS staff located in the USIS center in Frankfurt.

It appears that coordination at the posts often depends on the personality and style of the SCOs
and their counterparts in other federal agencies. Unfortunately, personal conflicts can lead to
animosity between agency officials and less than fully productive working relationships.
Historically, we have repeatedly cited problems with “turf” battles between US&FCS’s
commercial section and State’s economic section. In Germany, the conflict over responsibilities
for trade policy and promotion had been aggravated further by the personalities of the officials
involved. Based on our most recent work in Belgium, Japan, Poland, Portugal, Spain, and South
Korea, we are pleased to report that the US&FCS commercial sections seem to have adequate
working relationships with State’s Economic Section at these sites. However, considering the
long history of problems in this area and the trade benefits that can be reaped from improved
cooperation between US&FCS and USAID, USIS, or other U.S. agencies operating overseas, we
recommend that the Under Secretary use TPCC as a tool to encourage greater cooperation, and to
increase the synergy between federal agencies overseas to expand trade opportunities.



ITA’s response generally concurs with our finding that there are additional steps the TPCC can
take to increase exports through better cooperation. While the response indicates that US&FCS
has addressed the problems we found specific to Thailand and Germany, it recognizes that better
coordination with the other agencies in the embassies and posts, in particular State Economic
Officers, USAID contractors and employees, the Foreign Agriculture Service, USIS, and the
Office of Defense Allocation, can lead to more effective use of resources and more U.S. exports.

The response indicates that ITA will work with the other TPCC agencies to develop a plan to
improve coordination at posts. ITA stated that this plan may include expansion of the GTN15
initiative to include additional sectors and agencies; better communication between USAID



        15
           USAID has developed the Global Technology Network. The GTN is a vehicle whereby AID; State
Economic Officers; and Commercial Officers in Asia, parts of Latin America, and Africa can submit trade leads to
AID’s Office of Business Development. These leads are then E-mailed to Export Assistance Centers and SBA
clients who have registered to receive the leads. This program has been operating in California this summer and has
reportedly gotten great reviews from the domestic officers and their clients.

                                                       -33-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


consultants and US&FCS offices on commercial leads; encouraging better commercial reporting
by State economic officers; increased training of post personnel in business counseling and
export promotion; encouraging TDY’s by other agencies to US&FCS posts for two to three
weeks of hands-on exposure to trade promotion and commercial outreach programs; and
upgrading State’s communications capabilities to make E-mail systems compatible.
The Under Secretary’s response points out that ITA and the TPCC have taken some actions in
this area since our draft report was issued. Specifically, the Secretary of State sent a cable to all
embassies stressing the importance of export promotion. The cable provides guidance to officers
at overseas post on what they should do to advance commercial interests. The cable sets out
criteria for evaluating State officers on their cooperation with US&FCS personnel on commercial
issues. Some specific examples are joint client visits and sharing sectoral reporting
responsibilities and contacts.




                                                -34-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


V.     Better Coordination Is Needed Between the Commerce Agencies Involved
       in Export Promotion

The primary mission of the Department of Commerce is to promote American economic security
by helping U.S. businesses become more competitive. The Department seeks to fulfill this
mission, in part, by improving the international trade climate for American business and industry,
promoting the expansion of industrial research and development, providing accurate census data
and useful economic forecasts; and effectively managing the nation's oceanic and atmospheric
resources.

In the Department’s fiscal year 1999 Budget in Brief, the Secretary stated that:

                  "We are a Department with a vast array of programs and
                  operational units. Yet even as the responsibilities of the Commerce
                  Department's nine major bureaus and agencies . . . become more
                  and more varied, the various parts of the Department are
                  increasingly tied together through a shared vision and a shared
                  mission: to ensure that we utilize and manage our nation's
                  resources and infrastructure to promote greater economic
                  opportunity and a higher standard of living for all Americans."

While ITA clearly has the lead on helping U.S. business expand its exports, other Commerce
agencies are also involved in the opportunities for U.S. trade and business expansion. We
believe it is important that ITA work closely with these other Commerce agencies to leverage its
resources and to draw on the unique expertise available elsewhere in the Department to enhance
the support that can be given to U.S. firms seeking to expand their business overseas. In that
vein, the following sections report on the trade-related activities of several relevant Commerce
agencies, including EDA, BXA, MBDA, NIST, NMFS (part of NOAA), and NTIA and the
effectiveness of their interactions with ITA. There are still other Commerce agencies–such as
PTO, which is involved in important intellectual property rights and other international issues,
and the Office of General Counsel, which administers a commercial law development
program–which we have not addressed in this report.

A.     EDA export promotion grants should be better coordinated with ITA

The Economic Development Administration was established under the Public Works and
Economic Development Act of 196516, as amended, to generate new jobs, help retain existing




       16
            42 U.S.C. 3121.

                                                 -35-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


jobs, and stimulate industrial and commercial growth in economically distressed areas of the
United States. EDA assistance is available to U.S. rural and urban areas that are experiencing
high unemployment, low income levels, or sudden and severe economic distress. Based on
locally- and regionally-developed priorities, EDA works in partnership with state and local
governments, regional economic development districts, public and private non-profit
organizations, and Indian tribes to address the economic challenges of particular communities.

One way EDA accomplishes its mission is through its economic adjustment grants. These grants
enable EDA to fund local projects identified by communities impacted by military base closures,
contractor cutbacks, and Department of Energy reductions, in an effort to help them diversify
their economies and create quality jobs. During this review, we examined several of these grants
that directly relate to international trade and, more specifically, export promotion, as shown in
Table 5.

Table 5: Examples of EDA Trade Related World Trade Center Grants (dollars in 000s)

                                           Start     End       EDA        Grantee
                 Project                   Date      Date     Funding     Match          Total
 St. Louis World Trade Center               7/93      7/96        $820         $329       $1,149
 World Trade Center Assoc. of Florida       7/97     11/98        1,200         500        1,700
 LA Trade (Los Angeles)                     2/95      7/97        2,600         867        3,467
 Bay Trade (San Francisco)                  10/96     9/98        2,690         897        3,587

Although these awards appear to meet the criteria for economically distressed communities and
high unemployment, we are concerned that two of these awards–the St. Louis World Trade
Center and the World Trade Center Association of Florida–were not properly coordinated with
ITA. We found no indication of problems with the other awards.

St. Louis World Trade Center

According to a 1993 grant proposal from the County of St. Louis, Missouri, the largest employer
in the region laid off about 10,000 employees due to cuts in defense spending and cancellation of
defense contracts. The proposal called for the establishment of a Revolving Loan Fund and a
World Trade Center. Among other things, the World Trade Center funding included operating
expenses and acquisition of equipment for a video conference center. The World Trade Center
project cost totaled $1.149 million, of which $820,000 was funded by EDA.




                                              -36-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


The St. Louis World Trade Center’s primary purpose was to promote exports from St. Louis
companies. The city envisioned that the center would work with companies interested in
exporting by providing market research, a video conference center, translation services, export
seminars, documentation services, trade missions, and other related services. According to the
proposal, the establishment of a World Trade Center would address the most important issue
identified by the defense industry in the St. Louis region: access to new markets.

In this particular case, EDA did send a request for comments on the St. Louis proposal to ITA in
accordance with the Department’s grant review requirements.17 Unfortunately, EDA sent the
request (1) only one week in advance of the award, and (2) to ITA’s TD unit, not to US&FCS,
which overseas ITA’s domestic network of export promotion offices, including the one in St.
Louis.

Officials in the US&FCS USEAC in St. Louis stated that they were not notified about the grant
until it had already been made. One US&FCS official stated that, at a minimum, the EDA
regional office responsible for the grant should have notified them in the early stages of the grant
review process to determine what, if any, impact this award would have on its very similar
operation. We agree.

The USEAC Director stated that the two organizations (St. Louis USEAC and the St. Louis
World Trade Center) do work together on some projects and try to coordinate their activities as
much as possible. However, there is inherent competition between the two groups because, in an
effort to recover costs, the World Trade Center must charge a higher fee than US&FCS for
similar services. Thus, the USEAC Director believes that the World Trade Center may not
inform its clients about the USEAC’s products or its presence in St. Louis because if the World
Trade Center’s clients learned that it can receive the similar services at a lower rate, they might
turn their business over to the USEAC. This type of competition may ordinarily be healthy in a
business environment if it were not for the fact that both the St. Louis USEAC and the St. Louis
World Trade Center were primarily funded by the same entity–the U.S. Department of
Commerce.

World Trade Center Association of Florida

In 1997, EDA awarded a grant to the World Trade Center Association of Florida totaling
$1.2 million for technical assistance to implement and administer a “Trade Center of the
Americas” program in five locations throughout Florida–Orlando, Tampa, Jacksonville, Ft.
Lauderdale, and Miami–due to Defense base closings in these areas and the impact of cuts in the




       17
            Department Administrative Order 203-26.

                                                      -37-
U.S. Department of Commerce                                                                    Final Report IPE-9904
Office of Inspector General                                                                              March 1999


Defense budget on local contractors. The World Trade Center Association of Florida stated that
its goal was to complete approximately 400 new-to-export or new-to-market export transactions
within 18 months of the grant award.

The Association proposed expanding export opportunities for targeted industries by
(1) establishing TRADE AMERICAS, a statewide public-private partnership for policy
development and program implementation related to export promotion; (2) developing a
comprehensive, coordinated program linking Florida’s five World Trade Centers; (3)
coordinating, integrating, and leveraging public and private resources to cost effectively promote
exports and expand international trade through counseling, technical assistance, information
services and marketing support; (4) targeting defense-impacted industries for export assistance;
(5) enhancing trade information services in the State of Florida to make international market
research more easily accessible to impacted defense-related firms; and (6) generating new jobs
and economic growth by facilitating millions of dollars in new export sales.

Although the grant was not awarded until late July 1997, the application was approved at the
EDA regional level in May 1997. However, according to US&FCS officials, it was not until the
grant had already been awarded that either US&FCS headquarters or the Miami USEAC knew
about it. In April 1997, the Director General of the US&FCS, reportedly unaware of the pending
EDA grant at the time, signed a memorandum of understanding (MOU) with Enterprise Florida,
Inc. (EFI),18 to ensure that Florida’s export promotion programs maximize available resources,
avoid unnecessary duplication, and are accessible throughout the state. The MOU provided for
(1) the training of US&FCS and EFI trade specialists, (2) the marketing and promotion of
US&FCS programs and services, and (3) the representation by EFI of US&FCS programs and
services in the Florida cities represented by the WTC.

With the World Trade Center Association of Florida now a key player, and the fact that it had
financial backing from the Department through an EDA grant, US&FCS decided to revise its
original MOU with EFI to include both EFI and the World Trade Center Association of Florida
as partners. US&FCS officials were very concerned about the lack of coordination with EDA
that led to this confusion, making for an embarrassing situation for the Department. When we
questioned EDA officials concerning the apparent lack of coordination of this grant with ITA, the
only explanation we received was that the EDA regional office in Atlanta, which was responsible
for administering this grant, did coordinate its efforts–only it worked with the Atlanta USEAC,
not the Miami USEAC, which would be much better positioned to comment on the export
promotion needs of that community.




         18
         Although not a state agency, EFI is designated by the Florida state legislature as the official state
economic development organization. EFI receives funding from the legislature as well as the private sector.

                                                        -38-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


Although in both of these cases EDA attempted to coordinate its grant awards with ITA, its
actions were misdirected. We believe that EDA and ITA need an MOU specifying each agency’s
roles and responsibilities in the area of international trade, and how they will better coordinate
their future activities. More specifically, EDA should notify designated officials in ITA as soon
as possible of potential awards dealing with international trade in an effort to get the appropriate
ITA unit’s assessment of such awards.



In ITA’s response to our draft report, agency officials took exception to our recommendation that
“EDA should notify designated officials in US&FCS as soon as possible of potential awards
dealing with international trade in an effort to get the appropriate ITA unit’s assessment of such
awards.” The agency’s response suggests that the Chief Financial Officer should be notified
rather than officials in US&FCS and that person would then route the request.

The CFO position does not appear in our view to be the most effective point of distribution for
such key programmatic issues. Furthermore, we reiterate that it is important that US&FCS field
offices have sufficient information on proposed EDA export promotion grants and activities in
their areas. The example cited in ITA’s response may have been the appropriate routing for the
particular grant cited. However, the examples cited in our report clearly should have been
forwarded to the appropriate US&FCS field office.

EDA agreed with our recommendation to develop an MOU between the two agencies, stating
that “EDA is, of course, willing to improve the coordination of these types of projects and looks
forward to working with the Under Secretary for International Trade on this matter.”


B.     BXA and ITA appear to be working well together on defense trade advocacy

The Bureau of Export Administration is the primary U.S. government licensing agency for the
export of dual-use goods and technologies. BXA’s primary mission is to enforce dual-use
export control laws and regulations relating to national security, foreign policy, and short-supply
requirements. According to its mission statement, BXA also plays a role in the expansion of
U.S. trade and exports:

               “BXA plays a key role in challenging issues involving national
               security and nonproliferation, export growth, and high technology.
               The Bureau’s continuing major challenge is combating the
               proliferation of weapons of mass destruction while furthering the
               growth of U.S. exports, which are critical to maintaining our
               leadership in an increasingly competitive global economy.”


                                               -39-
U.S. Department of Commerce                                                               Final Report IPE-9904
Office of Inspector General                                                                         March 1999


In its 1993 report, Toward a National Export Strategy, TPCC recommended that the export
licensing and decision-making process be streamlined to eliminate bureaucratic delay and
duplication in the licensing review and referral process. In response to this recommendation,
strict time limits were placed on license reviews and a “default decision process” was adopted to
ensure rapid decision making; i.e., if a referral agency does not provide a recommendation back
to BXA within seven days, BXA can automatically grant the license. In addition, one of BXA’s
principal operating units, Export Administration, underwent a major reorganization in 1995 to
restructure its existing functional offices into multi-disciplinary (policy and licensing) export
control regime-based offices–Office of Chemical and Biological Controls, Office of Nuclear and
Missile Technology Controls, Office of Strategic Trade and Foreign Policy Controls, and Office
of Strategic Industries and Economic Security.

Within the Office of Strategic Industries and Economic Security, the defense program division is
tasked with developing an assistance program for the U.S. defense industry in response to the
dramatic reduction of defense spending.19 The program’s goal is to help these firms meet the
challenge of the reduction in defense spending by converting to civilian production and by
developing new business opportunities in growing international markets. According to BXA
officials, the two current focal points of this program are (1) defense trade advocacy, and
(2) international diversification and defense market assessments.

In 1994, BXA was officially designated the Department’s lead agency on defense trade advocacy
in an effort to best utilize existing resources and skills and comply with statutory responsibilities.
In a joint letter from BXA and ITA to the Executive Secretariat concerning defense trade
advocacy responsibilities, BXA agreed to fully support and coordinate defense trade advocacy
issues with ITA’s Advocacy Center, which is the central coordination point marshaling the
resources of TPCC member agencies to advocate on behalf of U.S. businesses, usually to foreign
governments. ITA’s Advocacy Center also agreed to provide defense trade-related information
to BXA.

Essentially, BXA’s role is to serve as an advocate for the U.S. defense industry in efforts to
compete for overseas procurements. According to BXA officials, they are the natural choice for
this role because of their long history of working with the defense industry and the departments
of Defense and State.




        19
         According to DOO 10-10, dated February 7, 1995, BXA has the responsibility for carrying out the
Department’s policies and programs necessary to administer U.S. and foreign defense conversion activities.

                                                      -40-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


In addition, BXA officials informed us that even though they are a regulatory agency they do not
see their advocacy efforts as a conflict of interest. In fact, they stated that the majority of
projects they are involved with generally concern munition items–requiring a Department of
State export license, not a Commerce export license. These officials also informed us that they
ensure that a company has received an export license (or that there would not be any problem
with obtaining such a license) prior to providing any advocacy efforts. We intend to review
BXA’s export control, licensing, and enforcement activities in the near future and will then
follow up on this issue.

Through our discussions with both BXA and ITA officials, it appears as if both agencies are
working well together to assist U.S. defense firms develop new business opportunities in
growing international markets. BXA officials stated it found both ITA’s Advocacy Center and
US&FCS to be very helpful and cooperative. BXA informed us that it attends US&FCS annual
conferences for its senior commercial officers in an effort to keep them informed of BXA’s
activities and ways that US&FCS can be of help to the U.S. defense industry. In addition,
according to the Department of Defense’s Defense Security Assistance Agency, it has a
“synergistic” relationship with both the US&FCS’s commercial attachés overseas and BXA
regarding defense advocacy.

Officials from the Advocacy Center stated that they are also pleased with BXA’s overall
advocacy efforts. The Advocacy Center has provided BXA officials with on-line access to the
center’s database so that BXA can continually update the system with any new or ongoing
projects. Although these officials also assured us that BXA does follow the established advocacy
guidelines, we did not conduct any field work to verify these assertions.

In addition to its defense advocacy efforts, BXA also prepares international diversification and
defense market assessments. These assessments, compiled into four regional market guides, are
intended to provide U.S. defense firms with a variety of information regarding non-traditional
dual-use and defense markets in the Pacific Rim, Europe, the Middle East, and the Western
Hemisphere.

After reviewing these market assessments, we generally found them to be very informative. Each
of the guides provides a standard set of background information such as the role of the US&FCS
and its commercial officers; the role of the Office of Defense Cooperation and the Security
Assistance Office; and points of contacts for U.S. export control regulations. In addition, each
guide contains specific country profiles for that particular region. For instance, the Western
Hemisphere Diversification and Defense Market Guide provides country profiles for the
following countries: Argentina, Brazil, Canada, Chile, Ecuador, Mexico, and Uruguay. The
country profile sections are generally broken down into the following sections:




                                              -41-
U.S. Department of Commerce                                                           Final Report IPE-9904
Office of Inspector General                                                                     March 1999


        l       Economic Overview (providing a brief description of each nation’s economy).
        l       Defense Industry Environment (providing a brief discussion of each nation’s
                defense budget).
        l       Defense Opportunities (listing general requirements for defense equipment, as
                well as specific trade leads).
        l       Defense Procurement Process (describing the contracting process of the country
                profiled).
        l       Diversification/Commercial Opportunities (highlighting dual-use or commercial
                opportunities–taken from the Country Commercial Guide).
        l       Foreign Government Points of Contacts.
        l       Doing Business.
        l       U.S. Government Points of Contacts.
        l       Trade Associations.


C.      MBDA export promotion efforts are not always in concert with ITA

The Minority Business Development Agency, pursuant to Executive Order 11625, as amended, is
responsible for developing and implementing federal policy, programs, and assistance designed
to increase public and private opportunities for minority entrepreneurs. MBDA’s primary
mission is to promote the establishment and growth of profitable minority-owned business
enterprises in the United States.

To fulfill its mission, MBDA provides a number of services and programs to help minorities
succeed in business, including an international trade initiative. Although we did not conduct an
in-depth review of this initiative, we found that Commerce’s activities in this area could be
improved.

Despite its international trade initiative, we found MBDA’s trade program to be very narrowly
focused. One of the initiative’s stated goals is to help U.S. minority-owned businesses expand
their business abroad and introduce them to new global markets by facilitating international trade
missions. However, we found no evidence that MBDA’s regional offices and its funded
Minority Business Development Centers (MBDCs)20 were provided direction or guidance with
regard to MBDA’s international trade related activities. The primary objective of MBDA’s trade
missions is to help mainly small- to medium-sized minority-owned or managed firms introduce
their products or services to overseas contacts that they may not be able to reach on their own due
to limited expertise or resources. It is our understanding that the main distinction between ITA’s



        20
           MBDCs are organizations funded by MBDA to provide management and technical assistance primarily
to minority-owned or operated businesses.

                                                   -42-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


trade missions and MBDA’s trade missions, besides the obvious emphasis on minority-owned
firms, is that MBDA subsidizes its missions for its clients.

The former employee responsible for this initiative informed us that MBDA only led one trade
mission in 1997 to South Africa. The mission was determined to be a success by both ITA and
MBDA, and MBDA attributed part of its success to US&FCS’s Minority Team for its
recruitment efforts. We applaud this level of coordination and cooperation by two Commerce
agencies and encourage its continuation.

Increased ITA and MBDA cooperation is needed at the regional office and MBDC levels

MBDA’s principal program focuses on providing management and technical assistance to
minority firms primarily through a network of approximately 40 MBDCs managed by its five
regional offices located in Atlanta, San Francisco, Dallas, Chicago, and New York. These
centers are operated by private firms, state and local government agencies, Native American
tribes, and educational institutions under the supervision of MBDA regional offices. The
primary mission of the MBDCs is to offer a wide range of business services to minority
entrepreneurs, including assistance in writing business plans, marketing, management and
technical assistance and financial planning to assure adequate financing for business ventures. It
would then seem logical for the MBDCs, after helping its clients become export-ready, to refer
these minority-owned firms to ITA’s USEACs–the federal government’s experts in the area of
export promotion.

During our visit to five USEACs, we found at least two instances where MBDA was not
coordinating its export promotion activities with ITA (we did not meet with MBDA or MBDC
representatives in our visit to the Atlanta or Baltimore USEAC). Specifically, during our on-site
field work at the Miami USEAC we learned that neither the USEAC or MBDC, both located in
Miami, coordinated their activities with each other. In fact, until we brought the director of the
Miami MBDC and the Acting Director of the Miami USEAC together for a meeting, the two
Directors had never met. This was even more surprising to us because the MBDC Director
informed us that approximately 30 percent of his clients were exporters, yet he admitted that he
had never thought of referring these clients to the Miami USEAC.

In another example, during our visit to San Francisco, we met with the directors for both the
Western Regional Office of US&FCS and the San Francisco Regional Office of MBDA. Again,
we learned that neither director had ever met, much less discussed how the two offices could
work together to better promote exports for minority-owned firms in their region. Both officials
agreed that greater interaction between the two offices would be beneficial and have since met to
discuss areas of mutual interest.




                                               -43-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


Due to the fact that MBDCs, which are MBDA-funded grantees, (1) must generate revenue to
operate a profitable operation, and (2) have performance goals to meet in order to maintain the
Commerce grant, there is a natural inclination for them to hold on to their clients and not refer
them to other Commerce service providers. However, in this case, we believe it is in the best
interest of the client to receive expert assistance from the USEACs in the field on trade
promotion and trade finance.

We discussed our concerns with MBDA headquarters officials about the lack of coordination
between its regional offices, including MBDCs, and ITA’s USEACs, and learned that they do not
currently provide the regions with any guidance on international trade related activities.
However, we were told that MBDA and ITA were in the process of developing a single MOU
outlining each agency’s responsibilities as it relates to export promotion of minority firms.
Although we think this MOU is a step in the right direction, MBDA headquarters must provide
direction and guidance to its regional offices and MBDCs on international trade-related activities.
Specifically, we believe MBDA should work with and use US&FCS and ITA as the primary
source of export-related assistance for its clients. Together with the USEACs, we believe that
MBDCs could help minority businesses prepare international business plans and apply for export
finance assistance.




The Under Secretary for International Trade stated in his response that ITA and MBDA have a
signed MOU that is “designed to increase ITA and MBDA cooperation at the regional and
district office/local level, especially on key activities like export counseling and trade finance
training for minority firms.” The Director of MBDA agreed with our assessment that MBDA
should work more closely with ITA. His response outlined several initiatives designed to
increase minority businesses’ participation in international business. The response also notes
areas where greater coordination is expected with ITA, such as the development of a plan by its
newly created Office of Market Access for assisting minority entrepreneurs gain access to
international markets.

The Director’s response stated that MBDA’s International Trade Office mentioned in the draft
report never existed, and thereby requested that we delete our reference to that office.
Consequently, we replaced all references to MBDA’s “International Trade Office” with
MBDA’s “International Trade Initiative.” It is important to note, however, that at the time of
our review, the person responsible for MBDA’s international trade initiative presented himself as
the Acting Director for the International Trade Office.




                                                -44-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


D.     NIST is contributing to U.S. export efforts by addressing international
       standards issues

NIST was established by the Congress to (1) assist industry in the development of technology
needed to improve product quality, (2) modernize manufacturing processes, (3) ensure product
reliability, and (4) facilitate rapid commercialization of products based on new scientific
discoveries. An agency of Commerce's Technology Administration, NIST's primary mission is
to promote U.S. economic growth by working with industry to develop and apply technology,
measurements, and standards.

The mission of NIST’s Office of International and Academic Affairs is to (1) provide advice on
international science and technology affairs, including the management of international
programs, and the interpretation of foreign policy guidelines set by the departments of State and
Commerce; (2) serve as liaison between NIST and the international science and technology
offices of other government agencies, foreign governments, and international bodies; (3) provide
NIST representation on various committees and delegations to international meetings;
(4) manage NIST bilateral and multilateral cooperative programs, and represent the Director in
the negotiation of international agreements; (5) serve as the focal point for foreign visitors and
guest researchers; (6) provide assistance to NIST travelers visiting foreign laboratories and
institutions; (7) arrange for NIST services to users in friendly countries (15 U.S.C. 273); and
(8) serve as the focal point for NIST's cooperation with academic institutions, and coordinate all
academic affairs of NIST.

In addition, NIST’s Office of Technology Services provides U.S. industry and trade, government
and the public, with measurements, standards, and information services that increase
competitiveness and facilitate trade. This is done by promoting innovation, improving quality,
reducing cost, promoting the use and adoption of U.S. standards, measurement practices and
technology by important trading partners, and overcoming barriers to trade. These barriers
include cooperating with other departments and agencies of the federal government, and state and
local governments in establishing uniform metrology practices, standards, codes, and
specifications; developing, producing, and distributing standard reference materials; providing
standard reference data; providing calibration and laboratory accreditation services; coordinating
metric usage to the extent practical in federal government procurement, grants, and business-
related activities; managing the Small Business Innovation Research Program; and providing
information services in support of NIST and collaborating with NIST's laboratories in carrying
out technology services responsibilities. NIST’s Standards in Trade Program is administered by
the Office of Technology Services.

The objective of the Standards in Trade Program is to assist U.S. industry in overcoming
technical barriers to trade caused by normative standards, conformity assessment testing, and



                                               -45-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


measurement problems in major existing or developing markets; and to encourage adoption of
U.S. technology and concepts to facilitate and enhance trade. The program uses two major
approaches to reach its objective: (1) workshops on standards, conformity assessment, metrology,
and other related subjects, and (2) placement of NIST standards representatives in foreign
markets. The workshops serve as both a vehicle for making contacts with standards officials in
other countries and an illustration of U.S. standards. Placing a standards representative in a
foreign market provides NIST the opportunity to negotiate, collect information, and influence
technical trade processes. NIST currently has representatives in Riyadh, Saudi Arabia; Brussels,
Belgium; Mexico City, Mexico; Buenos Aires, Argentina; and New Delhi, India.

The NIST standards experts have reported a number of success stories. For example, in Mexico,
new requirements for labeling goods did not clearly specify how the regulations would be
implemented. In addition, the transition period before the regulations would become effective
was considered too short to allow manufacturers time to comply by the middle of the upcoming
holiday season. Since non-complying U.S. goods had already been stockpiled in Mexican
warehouses, NIST’s standards representative provided technical assistance as part of the team
made up of US&FCS staff, other embassy staff, U.S. and Mexican businessmen, and the U.S.
Trade Representative. As a result, the Government of Mexico postponed implementation of the
new regulations. The timely technical information prepared and furnished by NIST’s
representative was reportedly a major factor in avoiding losses of sales of U.S. products during
the busy holiday season. This reportedly saved an estimated $550 million in U.S. sales.

During several overseas US&FCS post inspections, we noted the value or potential value that
NIST representatives added or could add to increasing the competitive position of U.S. exporters.
NIST officials with whom we spoke are interested in placing additional standards representatives
in other countries, particularly in developing nations, which need guidance and assistance in their
industry standards development. While we have not determined the costs and benefits of such
permanent overseas assignments, we encourage NIST officials to continue their efforts to provide
assistance to developing nations, where their advice and direction can help shape those nations’
industry standards.

E.     NMFS and ITA are coordinating on fisheries related trade issues

The National Marine Fisheries Service (NMFS), a component of Commerce’s National Oceanic
and Atmospheric Administration, is responsible for administering the agency’s programs that
support the domestic and international conservation and management of living marine resources.
Specifically, NMFS provides services and products to support domestic and international
fisheries development and operations, trade and industry enforcement and assistance activities,
protected species and habitat conservation operations, and the scientific and technical aspects of
NOAA's marine fisheries program.



                                               -46-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


NMFS’s Office of Industry and Trade is NOAA’s principal contact for issues related to the
commercial fisheries industry. These issues include access to foreign markets, standards
development and application, inspection of U.S. fisheries products exported to other countries,
technological barriers to trade, trade development, and other issues related to industry
competitiveness. The Office of Industry and Trade estimates that there are approximately
$3.0 billion in U.S. exports of edible fisheries products each year, the vast majority of which go
to Asia Pacific Economic Cooperation countries. Conversely, there is approximately $6.0 billion
in imported edible fisheries products each year. Therefore, one of the objectives of the Office of
Industry and Trade is to reduce that trade deficit through the promotion of U.S. edible fisheries
products overseas.

To conduct its work, the Office of Industry and Trade has a small office (four professional staff)
located at NOAA headquarters in Silver Spring, Maryland, and two commercial specialists
working overseas–one in Tokyo, Japan, and one in Brussels, Belgium. The two commercial
specialists working overseas are actually employed by ITA, but paid by NMFS through a
reimbursable agreement. This reimbursable agreement between NMFS and ITA is codified in a
1986 amendment to a 1982 MOU between the agencies, whereby NMFS reimburses ITA for
salaries, benefits, training, and travel for the two commercial specialists. In fiscal year 1997,
NMFS reimbursed ITA $325,000 to support the two overseas commercial specialists in their
efforts to further the fisheries trade program. These two commercial specialists perform most of
NMFS’s trade promotion activities, although some export counseling and constituent outreach is
performed by the staff at NOAA headquarters.

We found during our review that both NMFS and ITA are working well together on fisheries
related trade issues. Officials from the Office of Industry and Trade characterized their working
relationship with ITA, and specifically US&FCS, as mutually supportive. ITA regularly calls on
NMFS’s fisheries expertise in trade negotiations and promotion efforts. Likewise, when
counseling U.S. companies interested in entering the export market, NMFS works within the
US&FCS structure to provide points of contact in U.S. embassies around the world. In addition,
the two fisheries commercial specialists working within the US&FCS structure has provided an
ideal opportunity for coordination between both agencies. To ensure that the positive working
relationship continues, ITA and NMFS officials decided to update the MOU between the two
agencies on the fisheries trade program. The MOU is currently undergoing management review
and the officials hope to have the new MOU in force soon.

F.     NTIA and ITA promote trade opportunities for the U.S. telecommunications
       industry, but neither is coordinating its activities very well with the other

The National Telecommunications and Information Administration was created in 1978 by
combining various functions of the White House’s Office of Telecommunications Policy and



                                               -47-
U.S. Department of Commerce                                                                 Final Report IPE-9904
Office of Inspector General                                                                           March 1999


Commerce’s Office of Telecommunications. NTIA is the only executive agency focused
exclusively on telecommunications and information.21 As such, NTIA defines its role as
encompassing a broad and diverse range of telecommunications issues, including domestic and
international policy, advocacy, spectrum management, and research. According to Executive
Order 12046, dated March 27, 1978, which implemented the consolidation of these functions,

                 “The Secretary of Commerce shall serve as the President’s
                 principal advisor on telecommunications policies pertaining to the
                 Nation’s economic and technological advancement and to
                 regulation of the telecommunications industry.”

In addition, according to DOO 10-10, dated October 5, 1992, the Assistant Secretary for
Communications and Information has the:

                 “...authority to foster, promote, and develop the foreign and
                 domestic commerce of the United States in effecting, and as such
                 commerce may be affected by, the development and
                 implementation of telecommunications and information systems.”

NTIA’s Office of International Affairs (OIA) is responsible for reviewing and formulating
international telecommunications and information policies. OIA has 14 employees– including
one staff member who is currently on detail to USAID’s Southern Africa Regional
Telecommunications Restructuring Program in Botswana.22

The office focuses its activities on advancing competition and liberalization of
telecommunications and information policies around the world. According to NTIA, its efforts
to improve U.S. competitiveness in foreign markets include (1) advocating competition and
liberalization of telecommunication and information technology policies around the world,
(2) participating in international government-to-government negotiations to open markets for



        21
          The Federal Communications Commission is considered to be an independent regulatory agency
responsible to the Congress, not the executive branch.
        22
           The objective of the Southern Africa Regional Telecommunications Restructuring Program is to help
ensure that the Southern Africa Development Community member states realize the significant economic and social
benefits of a modern information infrastructure and have the technical and financial resources to develop it. The
program provides U.S. and international telecommunications firms with access to current information and business
opportunities in southern Africa. Other outreach activities include a quarterly newsletter, Southern Africa Telecom
Quarterly, and presentations at conferences and trade shows.




                                                       -48-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


U.S. companies, and (3) negotiating with foreign governments to ensure that there is adequate
spectrum for national defense, public safety, and U.S. business needs.

OIA officials informed us that for several years, NTIA, in conjunction with the
Telecommunications Industry Association (TIA), sponsored a series of regional policy and
technology conferences (such as the China-U.S. Telecommunications Summit and the Latin
America Telecommunications Summit) designed to give U.S. companies the opportunity to meet
with foreign government telecommunications ministers and their principal staff. We were told
that, generally, 20-25 U.S. telecommunications companies participate in the conferences and are
given a unique opportunity to demonstrate their technologies one-on-one with the foreign
telecommunications ministers. Although industry participation in the conference is managed
through the Telecommunications Industry Association, membership in the association is
reportedly not a requirement for participation.

NTIA sees the benefits of its joint efforts with TIA as twofold. First, by joining forces with
industry, it believes the U.S. is able to make a powerful case supporting the need for and
advantages of competitive telecommunications and information technology policies. Second,
U.S. industry is given direct access to these decision makers, enabling them to make valuable
contacts and complete a number of business deals.

Despite NTIA’s active policy role on international telecommunications issues, there is relatively
little cooperation between NTIA and ITA. In fact, ITA’s Office of Telecommunications, located
organizationally under TD’s Technology and Aerospace Industries Sector, has its own staff
working on many of the same issues as NTIA’s staff. The Office of Telecommunications has
approximately 14 employees divided into two divisions–Wireless and Wireline. According to
TD, the mission of the Office of Telecommunications is to support the growth and
competitiveness of the U.S. telecommunications industry by:

       l       promoting international trade and investment opportunities for the U.S.
               telecommunications industry;

       l       providing business counseling to U.S. telecommunications firms seeking to enter
               specific country markets;

       l       advocating on behalf of U.S. telecommunications firms; and

       l       conducting market research and statistical analysis of the domestic and
               international telecommunications industry.




                                              -49-
U.S. Department of Commerce                                                      Final Report IPE-9904
Office of Inspector General                                                                March 1999


Some specific activities of the Office of Telecommunications include sponsoring trade events
such as trade missions and trade shows. In addition, the Office of Telecommunications publishes
a variety of trade and industry reports, including telecommunications trade statistics,
international competitiveness studies, and foreign market guides based on the latest reports from
foreign commercial posts. The office also prepares the telecommunications chapters of the U.S.
Industrial Trade Outlook (a TD product).

Officials from the Office of Telecommunications informed us that they also work closely with
the Advocacy Center and other U.S. government agencies (e.g. U.S. Trade Representative) to
provide advocacy support for U.S. bidders on large foreign public projects, and support
initiatives to reduce or remove barriers that limit U.S. telecommunications firms’ access to
foreign markets.

Through various discussions with both NTIA and ITA officials during our review, it was evident
that these two offices are not working well together. We found that there is not only an overlap
of duties, but unclear definition of the roles and responsibilities of each agency with regard to the
development and pursuit of telecommunications policy initiatives and the advancement and
promotion of U.S. telecommunication interests abroad.

The Assistant Secretary for NTIA sent a decision memo to the Secretary of Commerce, dated
February 2, 1998, proposing that NTIA spearhead a new telecommunications trade initiative. In
response to this memorandum, the Under Secretary for ITA followed up with a separate
memorandum to the Secretary of Commerce, dated February 6, 1998, opposing most of the NTIA
proposal. Specifically, he stated that NTIA’s proposal “...would simply duplicate ongoing efforts
in ITA on behalf of the telecommunications and information technology sectors.”

We are very concerned that there are two agencies within the Department who are involved with
telecommunications trade policy, advocacy, trade associations, technical assistance, and trade
missions, yet they both acknowledge that they do not do a good job of coordinating their efforts.

TD was originally formed in an attempt to create a unique repository of industry-specific
information and analysis. It is generally thought of as being the natural nexus of industry and
government, a conduit through which industry views could pass and, at least within the
Department, TD is supposed to have the trade expertise relative to various industry sectors.
However, in the telecommunications industry, where another Commerce agency has significant
expertise and the congressionally mandated authority to develop national telecommunications
policy, we believe ITA and NTIA should reach an agreement on their respective roles and
responsibilities in export promotion and trade policy development. Both agencies should then
institutionalize their respective roles and responsibilities by revising the relevant DOOs and
signing an interagency agreement that spells out how they will work together. Most importantly,



                                                -50-
U.S. Department of Commerce                                                     Final Report IPE-9904
Office of Inspector General                                                               March 1999


the leadership of both NTIA and ITA need to make it clear that they are committed to working
together and leveraging their combined telecommunications and trade expertise. They should
make a concerted effort to immediately expand cooperation between NTIA and ITA offices and
staff to further enhance their success in reducing trade barriers and helping U.S. companies gain
a greater share of the worldwide telecommunications market.



While officials from both ITA and NTIA agreed with our characterization of the relationship
between the two agencies, neither agency adequately responded to the specific recommendation
that the two agencies come to an agreement as to the respective roles and responsibilities of their
agencies in export promotion and trade policy development for the telecommunications industry.
In our recommendation, we specifically state that they should “institutionalize their respective
roles and responsibilities by revising the relevant DOOs and formalizing the operating
relationship in an interagency agreement.” Both agencies attempted to justify their positions and
explain why their agency should be the Department’s focal point on the aforementioned
international trade related matters. We take this opportunity to reiterate that we did not suggest
that one agency should be given sole responsibility for the telecommunications sector, although
such a move does have its merits. Rather, we recommended in our draft report that they should
work together to define their roles and document such an agreement in an MOU. We also
recommended that both agency heads make a concerted effort to expand cooperation between
their offices and staff. We therefore stand firm on our recommendations on this matter.

We should point out, however, that the former Chief Financial Officer and Assistant Secretary
for Administration recommended in a decision memorandum, dated August 25, 1998, that “[in
the absence of any credible alternative, . . .we forward a proposal to the Secretary to approve the
consolidation of telecommunications functions and authorize the Department to forward the
NTIA reprogramming request to OMB and Congress for review.” This is an attractive proposal
because of the current leadership in NTIA and their strong commitment to expand international
trade for U.S. firms in the telecommunications industry. However, we caution that a future
Assistant Secretary for Telecommunications and Information may not share that same
commitment. Careful consideration should be given prior to making such a decision.




                                                -51-
U.S. Department of Commerce                                                   Final Report IPE-9904
Office of Inspector General                                                             March 1999


                                   RECOMMENDATIONS


We recommend that the Under Secretary for International Trade:

1)     Refine and implement ITA’s reorganization plan and, as appropriate, revise ITA’s current
       DOOs 10-3 and 40-1 to redefine the roles and responsibilities of the agency and its
       individual units’ in relation to exporters' needs. These revised DOOs should make ITA
       senior managers, including those in the Office of Administration, accountable for
       accomplishing their assigned tasks in a competent, cooperative, and coordinated manner.
       The revised DOOs should, at a minimum:

       a)      reduce overlapping administrative and programmatic functions;

       b)      remove organizational barriers that inhibit internal coordination and cooperation;

       c)      create a more coordinated focus on ITA’s core missions; and

       d)      centralize cross-cutting administrative functions in the ITA Administration unit.

2)     Designate a permanent office within ITA that has the necessary capabilities and authority
       to address agency-wide information technology issues, including:

       a)      planning and managing system infrastructure development projects;

       b)      identifying, understanding, and adequately servicing the needs of ITA field
               offices, and assisting in their support and maintenance needs;

       c)      keeping abreast of advances in technology to enhance internal operations and
               client servicing, and developing a strategic plan that will enable ITA to use
               advanced information technology to deliver customer services in the 21st century;

       d)      developing information technology policies and standards for the entire agency
               based on its strategic plan; and

       e)      holding the individual ITA components accountable for complying with
               established policies and directions.




                                               -52-
U.S. Department of Commerce                                                       Final Report IPE-9904
Office of Inspector General                                                                 March 1999


3)     Develop a more structured system development methodology and staff capability to
       manage the evolution of US&FCS’s Client Management System and the development of
       other information systems and Electronic Commerce capabilities.

4)     Improve the information technology planning and budget process for ITA and US&FCS.
       This should include strengthening their integrated information technology plan to identify
       IT needs and priorities, to better justify funding for the agency’s information technology
       needs, and to outline the respective information technology responsibilities of ITA and
       US&FCS.

5)     Seek to strengthen the role of the TPCC as a tool to encourage greater government
       cooperation and coordination on trade issues, and to increase the synergy between federal
       agencies overseas to expand trade opportunities.

We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service:

1)     Periodically evaluate the integration initiative to ensure that it is delivering the desired
       results.

2)     Ensure that the Teams Initiative includes, where appropriate, industry and country
       specialists from TD and MAC, respectively.

3)     Periodically review teams’ membership to ensure that trade specialists are on those teams
       that are consistent with the targeted industry sectors of their domestic offices.

4)     Move the position of Teams Initiative manager to headquarters to increase the visibility
       and priority of the initiative.

We recommend that the Under Secretary for International Trade, in conjunction with the
Assistant Secretary for Economic Development:

1)     Develop an MOU specifying each agency’s roles and responsibilities in the area of
       international trade. This should include EDA’s agreement to notify designated officials
       in US&FCS as soon as possible of potential awards dealing with international trade in an
       effort to get the appropriate ITA unit’s assessment of such awards.




                                                -53-
U.S. Department of Commerce                                                    Final Report IPE-9904
Office of Inspector General                                                              March 1999


We recommend that the Director of the Minority Business Development Agency:

1)     Develop–in consultation with US&FCS officials–a plan that works with and uses
       US&FCS’s network of USEACs as the primary source of assistance for its clients on
       international trade related issues.

2)     Provide direction and guidance to MBDA regional offices and MBDCs on MBDA’s and
       ITA’s international trade-related activities.

We recommend that the Assistant Secretary for Communications and Information and the
Under Secretary for International Trade:

1)     Come to an agreement as to the respective roles and responsibilities of their agencies in
       export promotion and trade policy development for the telecommunications industry.
       They should institutionalize their respective roles and responsibilities by revising the
       relevant DOOs and formalizing the operating relationship in an interagency agreement.

2)     Make a concerted effort to immediately expand cooperation between NTIA and ITA
       offices and staff to further enhance their success in reducing trade barriers and helping
       U.S. companies gain a greater share of the worldwide telecommunications market.




                                               -54-
U.S. Department of Commerce                              Final Report IPE-9904
Office of Inspector General                                        March 1999


                                   APPENDIX A

                              ITA Organizational Chart
                                   (August 1998)




                                        -55-
U.S. Department of Commerce                                     Final Report IPE-9904
Office of Inspector General                                               March 1999


                                            APPENDIX B

                                    Glossary of Acronyms

BXA            Bureau of Export Administration

CMS            Client Management System

CS             Commercial Service

EAC            Export Assistance Center

EDA            Economic Development Administration

EFI            Enterprise Florida, Incorporated

EPS            Export Promotion Service

FS             Foreign Service

FSO            Foreign Service Officer

GAO            General Accounting Office

IA             Import Administration

ITA            International Trade Administration

ITO            International Trade Office

MAC            Market Access and Compliance

MBDA           Minority Business Development Agency

MBDC           Minority Business Development Center

MOU            Memorandum of Understanding

NIST           National Institute of Standards and Technology




                                               -56-
U.S. Department of Commerce                                                 Final Report IPE-9904
Office of Inspector General                                                           March 1999


NMFS           National Marine Fisheries Service

NOAA           National Oceanic and Atmospheric Administration

NTIA           National Telecommunications and Information Administration

ODO            Office of Domestic Operations

OIA            Office of International Affairs

OIO            Office of International Operations

OIRM           Office of Information Resources Management

OIS            Office of Information Systems

OMB            Office of Management and Budget

OPIC           Overseas Private Investment Corporation

TD             Trade Development

TDA            U.S. Trade and Development Agency

TPCC           Trade Promotion Coordinating Committee

USAID          U.S. Agency for International Development

USEAC          U.S. Export Assistance Center

US&FCS         U.S. and Foreign Commercial Service

USIS           U.S. Information Service

USTTA          U.S. Travel and Tourism Administration




                                                 -57-
U.S. Department of Commerce                                        Final Report IPE-9904
Office of Inspector General                                                  March 1999


                                     APPENDIX C

                Trade Promotion Coordinating Committee Member Agencies

Agency for International Development
Council of Economic Advisors
Department of Agriculture
Department of Commerce
Department of Defense
Department of Energy
Department of the Interior
Department of Labor
Department of State
Department of Transportation
Department of the Treasury
Environmental Protection Agency
Export Import Bank of the United States
National Economic Council
Office of Management and Budget
Overseas Private Investment Corporation
Small Business Administration
United States Information Agency
United States Trade and Development Agency
United States Trade Representative




                                             -58-
U.S. Department of Commerce                                                 Final Report IPE-9904
Office of Inspector General                                                           March 1999


                                        APPENDIX D

                                     Partial Bibliography

U.S. Department of Commerce, Office of Inspector General, Assessment of Commerce’s Efforts
in Helping U.S. Firms Meet the Export Challenges of the 1990s, IRM-4523, March 1993.

U.S. Department of Commerce, Office of Inspector General, U.S. Export Assistance Centers
Offer Reason for Optimism, but May Fall Short of Expectations, Inspection Report Number
IPE-7130, March 1996.

U.S. Department of Commerce, Office of Inspector General, US&FCS Post in Germany,
IPE-9287, August 1997.

U.S. Department of Commerce, Office of Inspector General, US&FCS Post in Indonesia,
IPE-9285, May 1997.

U.S. Department of Commerce, Office of Inspector General, US&FCS Post in Malaysia,
IPE-9284, April 1997.

U.S. Department of Commerce, Office of Inspector General, US&FCS Post in Poland,
IPE-9288, April 1997.

U.S. Department of Commerce, Office of Inspector General, US&FCS Post in Thailand,
IPE-9286, April 1997.

Testimony of Secretary of Commerce before the Banking, Housing, and Urban Affairs
Committee, United States Senate, October 24, 1997.

General Accounting Office, Export Promotion: Problems in Commerce's Programs January 1989.

General Accounting Office, Export Promotion: Federal Programs Lack Organizational and
Funding Cohesiveness, GAO/NSIAD-92-49, January 1992.

Omnibus Trade and Competitiveness Act of 1988.

Public Law 100-418, August 23, 1988.

President's Reorganization Plan No. 3 of 1979, Reorganization of Functions Relating to
International Trade, September 25, 1979.



                                             -59-
U.S. Department of Commerce                                        Final Report IPE-9904
Office of Inspector General                                                  March 1999


                                  AGENCIES’ RESPONSES
                              International Trade Administration




                                            -60-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -61-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -62-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -63-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -64-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -65-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -66-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -67-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -68-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -69-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -70-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -71-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -72-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -73-
U.S. Department of Commerce                                               Final Report IPE-9904
Office of Inspector General                                                         March 1999


                  National Telecommunications and Information Administration




                                             -74-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -75-
U.S. Department of Commerce          Final Report IPE-9904
Office of Inspector General                    March 1999




                              -76-
U.S. Department of Commerce                                          Final Report IPE-9904
Office of Inspector General                                                    March 1999


                              Minority Business Development Agency




                                              -77-
U.S. Department of Commerce                                         Final Report IPE-9904
Office of Inspector General                                                   March 1999


                              Economic Development Administration




                                             -78-
